<html>
<title> - DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                        WEDNESDAY, MAY 14, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senators DeWine and Landrieu.

                       NONDEPARTMENTAL WITNESSES

STATEMENT OF SISTER ANN PATRICK CONRAD, ASSOCIATE 
            PROFESSOR, NATIONAL CATHOLIC SCHOOL OF 
            SOCIAL SERVICE, THE CATHOLIC UNIVERSITY OF 
            AMERICA





                OPENING STATEMENT OF SENATOR MIKE DEWINE

    Senator DeWine. Good morning. The hearing will come to 
order. Today we begin the subcommittee's second hearing within 
6 weeks regarding the foster care system in the District of 
Columbia. On April 2 we heard testimony that revealed a number 
of serious problems and shortcomings with the District's Child 
and Family Services Agency.
    It is imperative that CFSA address these problems and 
protect the lives of this city's children. Clearly, the 
paramount reason for exposing CFSA's failures is to discover 
ways to make lives better for the most vulnerable and precious 
of citizens, our children. That's why today's hearing will 
focus on ways that this subcommittee can target resources 
towards new initiatives aimed at improving the foster care 
system in the District of Columbia.
    Before we hear from today's panel, I think some of the 
points that were raised at our earlier hearing bear repeating, 
so briefly: First, the General Accounting Office has determined 
that CFSA is not meeting the official requirements of the 
Adoption and Safe Families Act. This law, which I helped pass 
and get signed into law in November of 1997, includes a number 
of very specific provisions. It requires States to change 
policies and practices, of course also the District of 
Columbia, to better promote children's safety and adoption, or 
other permanency options.
    In fact since this law has been in effect, adoptions have 
increased by nearly 40 percent nationwide. But, according to 
the GAO, CFSA is not meeting the important requirements of the 
Adoption and Safe Families Act.
    Another troubling finding that the GAO testified about is 
the District's inability to track its children in foster care. 
In fact, data is not even available for 70 percent of the 
District's children in foster care. This is true even though 
the District has invested resources in a new automated 
information system that has been operational now for over 3 
years. How can we track these children and determine their 
well-being if they are not even entered into an automated 
system, or certainly not fully entered into that system?
    In addition, the chairman of the National Association of 
the Council for Children testified that children wait weeks or 
months before a foster care placement is available. Some more 
of the children are waiting at group homes or overnight at CFSA 
offices. They are often placed in whatever home has a vacancy, 
irrespective of the needs of that particular child or the 
preference of the family.
    With the findings from last month's hearing as our 
backdrop, I will now turn to today's panel. These witnesses 
will describe their experiences with CFSA and will provide 
ideas about ways that we can better protect our children. 
Tragically, most children in this system have been traumatized 
by neglect and/or abuse. Then add separation from their 
caregivers. We should see to it that they do not experience 
additional, and I might say avoidable traumas, because of a 
failed foster care system. I look forward to hearing our 
witnesses describe ways that we can work together to fix this 
system.
    Witnesses will be limited to 5 minutes for oral remarks; 
however, we do have your written statements in front of us, 
which will be made a part of the record. Let me just say that 
the 5-minute rule we have, but we will be a little lenient in 
regard to that, as we have some excellent witnesses and are 
very anxious to hear your testimony.
    Let me introduce the entire panel and then we will begin to 
hear from all of you. Judith Sandalow is executive director of 
the Children's Law Center. The Children's Law Center is a 
nonprofit organization that provides free legal services to 
children, their families, and foster and kinship caregivers in 
the District of Columbia. We welcome you and thank you very 
much for being with us.
    Marilyn Egerton is the deputy director of the Foster and 
Adoptive Parents Advocacy Center. This center assists foster, 
kinship, and adoptive parents in the District of Columbia 
secure supportive services. Thank you very much for being a 
witness.
    Sister Ann Patrick Conrad is an associate professor with 
the National Catholic School of Social Service at The Catholic 
University. NCSS is one of the top 20 schools of social service 
in the Nation. Currently, 3,500 NCSS alumni are serving in the 
fields of child welfare, mental health, social policy, social 
justice and social work education. Sister, thank you for 
joining us.
    Jacqueline Bowens is the vice president for Government and 
Public Affairs at Children's Hospital, and is also joined by 
Dr. Joseph Wright, who is the medical director for Advocacy and 
Community Affairs at the hospital. Children's is the only 
hospital in the area dedicated exclusively to children's 
health. The hospital currently runs the DC KIDS program, which 
provides comprehensive healthcare services for children in D.C. 
foster care. We thank both of you for joining us here this 
morning.
    Damian Miller is a 20-year-old student at Hampton 
University. He has been in and out of D.C. foster care most of 
his life, having lived in a total of, I believe, seven foster 
and group homes. Damian has accepted an internship at the State 
Department this summer. Damian, thank you very much for being 
with us today.
    In no particular order, we will start with--Sister, do you 
want to start first, and we will just go from right to left?
    Sister Conrad. Thank you.
    Senator DeWine and members of the subcommittee, I want to 
thank you for the opportunity to provide testimony about some 
options that I feel are available to the subcommittee to 
enhance services in the District. I speak as a former dean of 
the School of Social Service, as an experienced health and 
family service worker, as the chair of the board of Catholic 
Charities of the Archdiocese of Washington, and also as a board 
member of the Council on Accreditation of Child and Family 
Services in New York.
    I want to commend the members of the subcommittee for your 
interest in the children of the District. It can really be said 
that the mark of a truly compassionate civilization is the way 
we treat our least fortunate, and so clearly, the children of 
the District in need of substitute families through foster care 
and adoption are among the persons who should be considered as 
part of this group, whom we sometimes refer to as the real 
human resources for the future.
    Most recently, as I'm sure many have had the opportunity to 
speak and talk with persons who have been in foster care and 
adoption, I know we are going to have this opportunity today, 
but one of the things that I think we want to be very aware of 
is that the potential of persons who are in care is something 
that we want to capture as a society and to grow and to 
develop. I have had the opportunity to review the hearings of 
the April meeting and I find that certainly the road to change 
for the District has been a slow and arduous path, but one of 
the things that is a serious and grave concern today is that 
childhood is a very short experience, and it leaves a lasting 
imprint, and this is particularly true for disadvantaged 
children.
    So for this reason, it is urgent that the future path be 
directed toward quality service, and the point that I want to 
make strongly is sustainability of the services, lest any child 
be lost in the system.
    At the School of Social Service we have worked over the 
years to provide a sound curriculum in the field of child 
welfare, and many of our students do go into this field. We 
have also joined with our social work education colleagues in 
this metropolitan area in providing continuing education and 
ongoing training for social workers who are already in the 
field.
    A point that I want to make is that what our graduates and 
what our students often find is that although they come into 
child welfare with a real passion to meet the needs of children 
and their families they serve, and they are deeply interested 
in the clinical well-being of the children, very often what 
they experience is that the responsibilities sometimes of 
excessive documentation, support services, transportation, 
crisis intervention, leave them little time to engage in some 
of the really best practices that we attempt to teach them in 
the School of Social Service. So this makes a real tension for 
them.
    Some feel that there is actually minimal or no public 
recognition for a job well done, yet at the same time they have 
a tremendous fear of the sense of sensationalism in the public 
arena with little or no shared responsibility when deficiencies 
do arise. So a major point, I think a major recommendation that 
I think that we can do in the future is to truly affirm the 
positive examples of competent foster care and adoption 
services and to provide ways that there is public recognition 
for our child welfare workers. I think this is a very basic.
    At the same time, speaking from my experience with the 
Catholic Charities of the Archdiocese of Washington, we've sat 
down in the past couple of days and we have had telephone 
conferences as late as yesterday. As I'm sure you know, 
Catholic Charities in the Archdiocese is one of the largest 
nonprofit providers, service providers in the District, and the 
Charities contract with CFSA for foster homes for children, 
many of which become adoptive homes, and also for independent 
living services for young men and women, as well as for teenage 
mothers and their children.
    For the most part, the staff reports that their working 
relationship with CFSA has improved tremendously over the 
years. Now you have to remember that we're talking about people 
that remember the days when the District did not make its 
payments for foster care parents and when all of our budgets 
had such tremendous deficits that we began to say, can we 
really contract with the District. So with that perspective in 
mind and with the perspective in mind that staff had often 
tremendous problems in communication and in collaboration with 
CFSA, what they find now is that CFSA, they feel is very 
appropriately demanding an increased accountability. For 
example, with case plans that require identified goals, service 
plans for children and families, and timelines to be made 
available.
    But as was brought out in the earlier testimony, the data 
system, the basic data system is often down, or just not 
available to their use. And what they're finding is that it's 
only very recently that they've been able to get a real 
technological responsiveness in this regard. But I want to make 
the point that that responsiveness does seem to be coming.
    The other point that seemed to be very, very important in 
my talking with the staff is that in the amount of change that 
has taken place in CFSA, there are, as one would expect, 
infrastructure disruptions. But what has been happening more 
recently that they do find helpful is the strengthening in 
communications. There are now monthly meetings that allow CFSA 
to provide information, and also that allow the contractors to 
be able to ask questions as they need them.
    A point of major concern, and I know it was discussed 
before but I wanted to reiterate, the fact that it's taking as 
long as 90 days to complete the licensing of foster homes and 
this, the staff finds very, very difficult in them being able 
to move children into a care system.
    Based on all of this then, I think it's important that we 
recognize that foster care was initially developed in our 
country as a response to children who were orphaned either as a 
result of a mother's death, accident, a father's dying in the 
war, physical health problems. The children were generally, 
they were fairly healthy and well adjusted experiences, and 
they could fit into foster homes much more readily.
    However, the current situation is not the case. Children 
now come into foster care because of abuse, family violence, 
community violence, drug situations, substance abuse, many 
other problems. So the children who come are already 
traumatized. As was pointed out, what we find is that in many 
ways the health care, the mental health care in the District, 
all of the social workers described the mental health care, 
what we find is that the mental health services that really 
could deal with the trauma that the children experience are 
particularly overwhelmed in the District. And so a second 
recommendation that we feel, and I think much more work could 
be done on this to flush it out even more fully, is that the 
District really needs to develop specialized mental health 
services, staffed by professionals who are experienced in 
meeting the special and differential needs of young and older 
children who are in need of care.
    Many of the judges, as you know, order mental health 
evaluations, and yet, sometimes the staff available or the 
services available leave children on a waiting list, they tell 
me, for as long as a month. Now this is not acceptable in 
trauma situations.
    So in the older days of foster care, we had such things as 
the child guidance clinic or the child mental health clinic, 
that was truly tied in specifically with foster care and 
adoption, and understood those services in a special way. This 
seems to be very imperative for the District to move much more 
rapidly and strongly in this direction.
    The final area that I want to point out is that some gains 
have been made during the period from child welfare 
receivership and beyond. We can identify a number of directors 
who each have made their own contribution. Yet at the same 
time, we know for any system when there is frequent and rapid 
change, it's very possible to move to a burnout or what many of 
the social work professionals are calling today, the mental 
health professionals are referring to as compassion fatigue.
    What I would like to bring to our attention is the fact 
that it becomes very, very important to think about the future 
of the services and to begin to talk about the fact that across 
the country, many agencies have moved into the area of 
accreditation. I served and have been involved in the 
development of the Council on Accreditation of Family and Child 
Services for a number of years, and we have been very strong 
advocates that the D.C. metropolitan area move into this 
accreditation process.
    If you're not familiar with this particular process, it was 
formed in 1977 at a time when the Child Welfare League of 
America, the Family Services of America, and a number of the 
church-sponsored or faith-based organizations were really 
experiencing a tremendous desire to begin to set standards for 
child welfare organizations. At the current time, COA, the 
Council on Accreditation, accredits more than 1,400 public and 
private organizations that serve children and families. And the 
advantage of this is that this is a national organization that 
sets national goals, it readily updates the standards for child 
care, and they hold accountable in an objective way the staff 
from an administrative point of view, as well as from a 
services point of view.
    Most organizations that move into the process, it's a stage 
process, that requires first an application process, a self 
study and the self study in itself has the organizations look 
very carefully at their own processes, what needs to be done, 
how do they have strong quality assurance programs. And these 
are monitored, and there are standards set for how this can 
happen. My recommendation is that the District move into this 
accreditation process and that they contract with service 
providers who are also accredited. This is happening across the 
country. Many States and local jurisdictions are given a 
timeframe by which they require that the agencies that they 
work with have some form of accreditation, and have moved in 
that area.
    To the best of my knowledge, only three agencies in the 
District have been accredited by this process. These are the 
Family and Child Services of Washington, Lutheran Social 
Services of the National Capital Area, and Progressive Life 
Center. And currently, Catholic Charities is in this process 
and will move toward it.
    We feel that the advantage of an accreditation process for 
the District is that it will assure that all CFSA children and 
families receive confident and holistic care based on regularly 
updated standards regardless of who the service provider is. It 
would certify that CFSA and provider agencies adhere to highest 
standard of management practices regardless of administration 
or staff turnover.

                           PREPARED STATEMENT

    Several years ago at Catholic University, the National 
Association of Social Workers sponsored a conference on child 
welfare and at this time there was some of the early moves to 
move away from the formal receivership. At that time the 
receiver who was in office at that point in 1998 committed 
herself to moving toward an accreditation process and to 
contracting with accredited organizations. Unfortunately, it's 
my understanding----
    Senator DeWine. Excuse me, Sister. You are way over time. 
I'm liberal, but not that liberal.
    Sister Conrad. Thank you. Much more is in the written 
material.
    [The statement follows:]
              Prepared Statement of Sr. Ann Patrick Conrad
    Senator DeWine and Members of the Subcommittee, I thank you for the 
opportunity to provide testimony about the options available to the 
Subcommittee to enhance child and family services in the District of 
Columbia. I speak as an experienced child and family service social 
worker; as former Dean of the National Catholic School of Social 
Service (NCSSS), The Catholic University of America; as current 
Chairperson of the Board of Directors of Catholic Charities of the 
Archdiocese of Washington; and as a member of the Board of Directors of 
the Council on Accreditation of Child and Family Services, New York. I 
want to commend the members of the Subcommittee on your interest in and 
commitment to the children and families of the District of Columbia who 
are vulnerable and in need of our special support and concern. It can 
be said that the mark of a truly compassionate civilization is the way 
we treat those who are least fortunate. Clearly, the District children 
in need of substitute families through foster care and adoption are 
among the persons who should be considered as part of this group and 
whom we sometimes refer to as the human resources of the future.
    Most recently I had the opportunity to meet the family of a former 
Catholic Charities' foster child who was later adopted by his foster 
family. They reminisced over their experience of foster care and 
adoption, pointing out how very proud they are of their adopted son, 
now a married adult and father of a growing family. He completed his 
education, served in the Gulf War and currently serves as a career 
Federal civil servant. This family continues to sustain a close and 
supportive relationship with each other that benefits not only the 
immediate family members and their offspring but also the community in 
which they live. In many ways, this is an exemplar of the outcomes that 
quality professional child and family service can produce when a social 
service agency, foster families, and the community work together.
    I have had the opportunity to review former testimony provided to 
the Subcommittee in your April hearings and have followed the various 
transitions in the District of Columbia Child and Family Service Agency 
since the LaShawn Order. There is no question that the path to change 
over the subsequent years has been slow and arduous. However, the 
experience of childhood is short and leaves a lasting imprint--
particularly so for our Nation's poor and disadvantaged children. For 
this reason, it is urgent that the future path be directed toward 
quality service and sustainability, lest any child be lost in the 
system. Therefore, my comments are directed to these ends: quality 
service and sustainability.
    Our School of Social Service at Catholic University has had a 
continual interest in the welfare of children and have worked to 
provide a sound curriculum in child and family service that prepares 
social workers to pursue careers in the complex and changing field of 
Child Welfare. We have also joined with our social work education 
colleagues in the Washington Metropolitan area to provide training and 
continuing education for social workers in this field. It has been our 
experience that child abuse, family violence, and the drug culture are 
among the many social phenomena that require heroic efforts on the part 
of today's caseworkers and case managers. Many have a real passion to 
meet the needs of the children and families whom they serve and are 
deeply interested in the clinical well-being of the children. Yet the 
responsibilities of extensive documentation and support services such 
as transportation, crisis intervention and the like leave them hard 
pressed to find the time to engage in best practices. Some feel that 
there is minimal to no public recognition for a job well done, yet they 
fear extensive sensationalism in the public arena with little or no 
shared responsibility when there are deficiencies. As a start, we need 
to affirm positive examples of competent foster care and adoption 
services and to provide public recognition for our child welfare 
workers.
    As you most likely know, Catholic Charities of the Archdiocese of 
Washington is among the largest private non-profit social service 
providers in the District. Our financial audit shows that 85 cents of 
every dollar goes into client service. The agency contracts with the 
Child and Family Service Agency (CFSA) to provide Foster Home Care for 
children--many of which become Adoptive homes--and Independent Living 
Services for young men and women as well as teenage mothers and their 
children. For the most part, staff report that their working 
relationship with CFSA is good and mutually supportive and that 
increased accountability to CFSA is being appropriately demanded. An 
example is that case plans which contain identified goals, service 
plans for children and families, and time lines are to be made 
available in a timely manner through the automated FACES data base. 
Unfortunately, the system has been frequently ``down'' and it is only 
recently that workers are experiencing greater responsiveness to their 
difficulties in this regard. They describe other infrastructure 
disruptions such as lack of information about whom to contact for 
particular types of needs, but note that they are encouraged by CFSA to 
report these problems when they occur. To address the issues and 
strengthen communication, CFSA holds monthly provider meetings which 
allow agencies the opportunity to raise issues and concerns as well as 
to provide a vehicle for CFSA to transmit necessary information to the 
service agencies. Additionally, Charities staff find that the process 
of licensing of foster homes has been lengthy--taking as long as 90 
days to complete, because CFSA has been short of staff to carry out the 
review process. These concerns are not new and have been discussed in 
previous hearings. In summary, the Catholic Charities staff find that 
communication and coordination with CFSA are in transition from a 
crisis orientation to a more consistent working relationship.
    It is important to recognize that foster care was initially 
developed in an earlier century as a response to children who were 
orphaned as a result of a mother's death in childbirth, the father's 
death in a war, or caretaker deaths from pneumonia, tuberculosis, 
polio, accidents, etc. The children were generally healthy, adjusted 
children who fit easily into a family where the mother was at home and 
the father was the sole breadwinner. This is not the case today! 
Children of this century come into foster care as a result of physical 
or sexual abuse, domestic violence, community violence, substance 
abuse, severe neglect, abandonment, and other social problems. These 
children are frequently not healthy, happy children who simply need a 
home. They are traumatized children in need of many more supports. They 
are traumatized first by the neglect and/or abuse they have 
experienced; then by separation from the primary caretaker; again by 
placement with strangers; and yet again by re-placement for troubled 
behavior when the initial placement threatens to disrupt. Too often, 
our child care system ignores the initial mental health stresses and 
compounds them with further forms of trauma such as movement from one 
home to another, often more harmful than the initial trauma. Although 
judges frequently order psychiatric evaluations in emergencies, the 
services are described by social workers as ``overwhelmed'' and so 
backed-up that foster children can be a month or longer on the waiting 
list.
    Compliance with current Federal Law (the Adoption and Safe Families 
Act) requires that children be returned to families or placed for 
adoption within a year. While basically sound in terms of permanency 
planning, this requirement places intense psychological stress on 
children and on the child care system. We need to make the assumption, 
then, that long waiting periods for mental health care are unacceptable 
and need to be remediated. The District needs to develop a specialized 
mental health service staffed by professionals who are experienced in 
meeting the special and differential needs of young and older children 
who are in our care.
    Finally, and very importantly, there is the issue of strengthening 
and sustaining the gains that have been made. We need to recognize that 
during the period of the Child Welfare Receivership and beyond there 
have been at least five directors whom I can identify. At NCSSS, we 
reached out and collaborated with them all. Each brought important 
gifts and talents to the table and in his and her own way moved the 
system along. However, with each change there was ambiguity and 
disruption for the workers, the children, the families and the 
community as the environment and expectations changed. While a certain 
amount of challenge is useful for any system, continual transitions can 
lead to burnout and what is known today as ``compassion fatigue.'' Over 
the years, I and several of my colleagues have been involved in the 
development and work of the Council on Accreditation of Family and 
Child Services (COA) and have been strong advocates that the foster 
care and adoptions services in the Metropolitan area and the agencies 
with whom they contract engage in this process. We see this as a way of 
stabilizing the gains that have been made while at the same time 
placing the responsibility for long-term oversight in the hands of 
experienced professionals.
    The Council on Accreditation was founded in 1977 through the 
combined efforts of the Child Welfare League of America, the Family 
Service Association of America as well as Jewish Family Services, 
Catholic Charities U.S.A., Lutheran Family Services and other 
experienced family and child serving agencies. Their purpose was to 
promote standards of care based on best practices that could be used 
across the United States and Canada. Today, more than 1,400 public and 
private organizations serving over six million individuals, children 
and families are accredited. With its recent international thrust, 
family and child care agencies in the Philippines and other 
underdeveloped countries struggling for financial and human resources 
have become interested in the process. They see accreditation as a way 
of sustaining the transformative efforts they have undertaken. COA 
provides standards for agency administration as well as for service 
provision in 60 unique service areas. The process includes four basic 
phases: First, an application is submitted by the applying 
organization. Eligibility criteria require that the organization 
provide at least one of the services for which COA has accreditation 
standards; that it be in operation for at least one year at the time of 
the on-site review; that it hold all applicable licenses or 
certifications required to operate; and that it demonstrate sufficient 
autonomy and independence to permit review as a separate entity. 
Second, a self study is completed which addresses all areas of 
organizational management as well as service standards. During the self 
study, the agency undergoes a systematic quality improvement process 
and strives to demonstrate to COA and to the peer review team that it 
is in compliance with all standards. The self-study process takes 
between four and eight months and involves participatory self-study and 
change where needed. Next, a site visit is made by a team of peer 
reviewers knowledgeable and experienced in the accreditation process. 
In the final phase, an accreditation decision is made by the COA 
Accreditation Commission. Most organizations complete the entire 
accreditation process within 12 months but an organization facing an 
internally or externally imposed deadline may opt for an accelerated 
time line.
    To the best of my knowledge, only three agencies in the District 
have been accredited. These are Family and Child Services of 
Washington, Lutheran Social Services of the National Capital Area, and 
Progressive Life Center. Currently, Catholic Charities of the 
Archdiocese of Washington is in the final stages of the process. This 
means that although they may be in compliance with current legal 
requirements, neither CFSA nor many of its contractor agencies have 
been systematically evaluated against national standards of best 
practice.
    You may already be aware that at a conference on child welfare held 
at Catholic University in 1998 sponsored by the Metropolitan Chapter of 
the National Association of Social Workers and co-chaired by Dean 
Richard English of Howard University School of Social Work and myself, 
a former CFSA Receiver committed her administration to work toward 
accreditation. Some staff work in this regard was begun. Unfortunately, 
it has been my understanding that work toward compliance with the law 
eventually took precedence and I am not aware that accreditation has 
been pursued since that time.
    However, in light of the continual and increasingly complex 
challenges to competent and responsible child welfare today--the 
challenges of physical and sexual abuse, domestic and community 
violence, substance abuse, etc.--and in spite of the strides that have 
been made through receivership and beyond, it is imperative that an 
objective and experienced system of oversight such as that provided by 
the Council on Accreditation be required for the District of Columbia 
which holds CFSA and its contractors to clear and measurable national 
standards within a three to four year time line. This provision will 
serve the District of Columbia by:
  --Assuring that all CFSA children and families receive competent and 
        holistic care based on regularly updated standards, regardless 
        of service provider;
  --Certifying that CFSA and provider agencies adhere to high standards 
        of management practices regardless of administration and staff 
        turnover;
  --Providing a work environment that is safe and supportive of on-
        going professional development for all staff; and,
  --Ensuring that on-going oversight of the child and family services 
        of the District is carried out by an experienced and committed 
        professional organization, thus reducing the amount of time and 
        direct action needed by government officials such as Congress 
        and the Appropriations Committee.
    Failure of the Appropriations Committee to act in this regard and 
to provide the needed resources could compromise the future progress 
and sustainability needed to meet today's child welfare challenges. The 
District of Columbia needs and deserves to be on a par with national 
standards of foster care and adoption as well as other child and family 
services.
    Thank you for the opportunity to address this very important 
issue--the future of our vulnerable and neglected children in the 
District of Columbia. With appropriate resources and systems, they, 
like the former foster child I described earlier, can and will become 
an integral part of our human resources of the future.

    Senator DeWine. Thank you. Miss Egerton. You're next. We 
have been joined by Senator Landrieu.
STATEMENT OF MARILYN R. EGERTON, DEPUTY DIRECTOR, 
            FOSTER & ADOPTIVE PARENT ADVOCACY CENTER
    Ms. Egerton. Good morning, Senators. My name is Marilyn 
Egerton. I am a D.C. foster kinship and adoptive parent. In 
addition, I am the deputy director of the Foster and Adoptive 
Parent Advocacy Center, commonly known as FAPAC. We are very 
appreciative of your inclusion of foster parents' voices into 
these hearings and thank you for inviting us to participate and 
to share our experiences with the reform efforts of the D.C. 
child welfare system.
    In the 12 years that my husband and I have been foster 
parents, we have fostered over 25 children, had well over 50 
social workers, and I have been active as a member of foster 
parent leadership through three changes in administration.
    I would like to start my testimony by pointing out some of 
the positive changes that have happened during this 
administration. These changes include the successful closure of 
the respite center in the CFSA building. This was a place where 
children were living, often for days at a time, while placement 
workers tried to find a home for them. As additional success, 
the majority of these children are going into individual foster 
homes as opposed to congregate care facilities.
    Also at the insistence of the foster parent leadership, a 
CFSA mandate requiring all staff to give the name and number of 
their supervisor on their outgoing voice mail message enables 
us to immediately go up the chain of command when we cannot 
reach our social workers. This is a huge accomplishment for us. 
We've worked very hard and very long to get it.
    Third, the accessibility of upper level management to both 
the foster parent leadership and the individual foster parents 
has been extremely commendable.
    Fourth, the development of a new placement information 
packet through a joint effort of foster parents and staff to 
address a serious issue of the lack of information given when 
children are placed in their homes. The packet has been 
developed and when CFSA workers actually begin using them, this 
will be another major improvement.
    Fifth, the introduction of disruption conferences, which 
utilize clinical expertise to try to prevent disruptions.
    And sixth, principal deputy director Leticia Lacomba's 
creation of joint working groups of foster parents and staff to 
revise and impact policy and practice guidelines.
    Despite the good intentions and real improvement we have 
seen, the tasks ahead for CFSA regarding its foster parent 
community are still great. There are many areas in which the 
support and services we receive are inadequate to meet the 
needs of our children. These areas include, one, the need for 
the infrastructure of CFS to improve to accommodate the changes 
being made at the upper level. As a result of this process, 
problem resolution often goes around in circles. Hours that 
could be appropriately spent parenting are often spent in 
frustrating efforts to seek problem resolution.
    Second, the reliance on social workers for routine tests 
that could be accomplished by administrative support like 
looking up a Medicaid number or Social Security number. Quite 
frankly, I'm perplexed that the agency does not utilize 
administrative support for these clerical tasks within the 
social work unit, freeing the social workers to actually 
practice social work.
    Third, although the responsiveness and inclusiveness of the 
upper level has been real and significant, the attitudes of 
true partnership have not yet reached the front line. Workers 
often invalidate our experience and when it comes to the right 
to make a decision, they exclude, ignore and/or rebuff the 
foster parent's input.
    For all the children currently living in my home, I have 
been invited to participate in a total of one administrative 
review, at which parenting plans and progress are to be 
discussed. We have been assured very recently that the 
technological and logistical barriers to notification have been 
resolved and that consistent notification of administrative 
review will now be implemented. We hope to see evidence of this 
in the immediate future and we trust that our notification of 
court reviews will be next.
    Fourth, the inability of social workers to consistently 
access resources both within CFSA and from the community. We 
recommend that social workers receive training in this area.
    Fifth, the lack of sufficient numbers of infant daycare 
slots in the District of Columbia. It is an issue and it is a 
barrier to particularly working families fostering infants in 
the city.
    Sixth, the lack of quality and timely mental health 
services. Our children are wounded. Many have suffered 
emotional and sometimes physical abuse and all have suffered 
much loss by the mere fact that they have been torn away from 
everything that they are familiar with. It is outrageous that 
their mental health needs have been addressed in such an 
inadequate manner. We do not know the answer, I don't know what 
it is, but it is a problem that is so paramount that it cannot 
go unaddressed. And just to say that we understand that the 
mental health, Department of Mental Health has control over the 
mental health stuff, but we don't think it's enough for the 
agency to just say okay, that's their responsibility. And much 
like special ed, it may fall on the DCPS, but if our children 
are not getting what they need from those agencies, then we 
feel it is the responsibility of CFSA to find a way to get it 
for them.
    Seventh, the lack of adequate Medicaid numbers and cards, 
this creates barriers to health care for our children.
    Eighth, the lack of an operating medical consent to treat 
policy leaves us as well as the hospitals confused about who 
can sign for what treatments.
    And ninth, the lack of availability of and access to 
respite care. All parents need a break from their children at 
some time. Biological parents have the option of sending their 
children to spend a weekend with their relatives or family 
friends, or to visit a classmate for the weekend. As foster 
parents, we don't have that option unless those parents can 
meet many criteria, including obtaining all the clearances that 
we as foster parents have to obtain.
    This puts us in a very tough position. Not only are we 
asked to parent without significant breaks, we are parenting 
children who often have serious issues. And I can say that I 
know placements that have disrupted, I have experienced 
personally a placement disruption in my home because of a lack 
of respite care. And when I requested respite for a child who 
was having very severe emotional and mental health issues, I 
was told respite did not exist, but I know of foster parents 
who get it. But I was told it was unavailable and did not 
exist.
    And so, the crisis in my home escalated to a point where 
the placement disrupted and that child was moved to what is 
called a therapeutic home, where once a month--where in a 
therapeutic home they receive respite every other weekend, they 
get in-home counseling, they have a staff available around the 
clock. Needless to say, CFSA is paying exorbitant amounts of 
money to have this child parented in that home when all I asked 
for was respite once a month, and then he would not have been 
torn away from his brothers, who are still with me, and he 
would not have had the experience of yet another move and an 
introduction into yet another family.
    I believe that many seeds have been planted under this 
administration which can lead to very positive change for 
foster families at CFSA, but many have not yet blossomed into 
actual day-to-day improvement. Responsiveness, accessibility 
and inclusiveness of the upper level's response to foster 
parents have been real and beyond rhetoric. However, we have 
much further to go with the infrastructure in CFSA to implement 
the philosophy of the upper levels for the principles of best 
practice.

                           PREPARED STATEMENT

    In closing, we do think that the agency is on the right 
path. We believe that. However, we must acknowledge and support 
the necessity for them to develop an infrastructure that will 
facilitate the kinds of changes essential for our children to 
receive the care that they deserve. I appreciate the 
opportunity to speak to foster parent concerns at this hearing 
as an individual foster parent as well as the deputy director 
of FAPAC. I will continue to be available to assist in system 
reform in any way that I can, and to work with CFSA to develop 
its partnership with this foster parent community. Thank you, 
Senator.
    [The statement follows:]
                 Prepared Statement of Marilyn Egerton
    Good morning. My name is Marilyn Egerton, and I am a D.C. foster, 
kinship and adoptive parent. In addition, I am the Deputy Director of 
the Foster & Adoptive Parent Advocacy Center, commonly known as FAPAC, 
an organization that assists foster, kinship and adoptive parents of 
children in the D.C. child welfare system to secure services and help 
to create system change.
    We are very appreciative of your inclusion of foster parent voices 
into these hearings and thank you for inviting us to participate and to 
share our experiences with the reform efforts of the D.C. child welfare 
system.
    In the 12 years that my husband and I have been foster parents, we 
have fostered over 25 children, had well over 50 social workers, and I 
have been active as a member of the foster parent leadership through 3 
changes in administrations. Currently living in my home are my foster 
grandson, the infant son of one of my older boys who has ``aged out'' 
of the system, my foster teenage son and my three adopted school aged 
children. In addition, we continue to parent four young adults who we 
raised in foster care. They have aged out of the system and now live 
nearby and although they no longer live in our home they are still very 
much a part of the family. With this perspective of history, I feel 
qualified to discuss changes we are currently experiencing under the 
administration of the Director, Olivia Golden, and the Principal Deputy 
Director, Leticia Lacomba.
    Although everyone agrees that there is still a tremendous amount of 
work to be done at CFSA, I think it only fair to point out some of the 
positive changes that have happened during this administration which 
have brought, and have the potential to bring many more, significant 
changes in the lives of children in the D.C. child welfare system and 
their foster/kin/adoptive families.
    Over the last two years, this administration and staff in 
partnership with the foster parent community has been able to close 
down the respite center that was located on the first floor of the CFSA 
building. This was a place where children were living, often for days 
at a time, while placement workers tried to find a home for them. Can 
you imagine being a child who was just recently removed from all that 
is familiar to you--your family, your friends and your community? Only 
to spend those crucial first few days sleeping in an office building 
and not in the comfort and safety of the loving home and arms of foster 
parents trained and willing to help them through this most difficult 
time. This is a very personal issue for me. As a member of Foster 
Parents United for Support and Change, a local foster parent support 
group, I worked very hard to combat this situation. In previous years 
and during previous administrations, at the end of our monthly 
meetings, members who had vacancies in their homes would go down to the 
respite center to see if there were any children we could take home who 
were sleeping at the agency. It was tragic and poignant to see children 
of all ages who could not be placed anywhere else living for days in an 
office building. To have lessened the need for this center so much so, 
that it could be eliminated all together is quite an achievement. When 
we add to this the fact that not only are children being placed without 
having to spend the night at CFSA, but that most children are being 
placed in actual homes with loving foster and kinship families, and not 
in congregate care, it is clear to us that this in an amazing 
accomplishment.
    Another major problem we have had for years and years has been the 
lack of accessibility of our social workers, supervisors and 
administrators. In fact, it was so bad that many foster parents were 
convinced that once caller ID went into the agency, their calls were 
actually being screened out by workers. At the request of foster 
parents, CFSA has mandated that each staff member have an outgoing 
voice message that reflects the name and number of their supervisor so 
that if we cannot reach our worker we can immediately go up the chain 
of command. This may sound like a small innocuous change to many, but 
I, like most foster parents whom I know, have been in situations with 
my own children over the years when I have called and left many 
messages for my children's social worker(s) to request vital 
information like a Medicaid number, options for therapy for my 
child(ren), shot records or daycare requests. And, because I didn't 
know who the social worker's supervisor was, or I didn't know the 
supervisor's number, my only options were to sit and wait days and 
sometimes weeks for a social worker to get back to me or for my husband 
or me to take a day off of work and go down to CFSA and act ugly until 
someone helped us. Having this information readily available on the 
outgoing voicemail message has been very helpful for those situations 
in which accessing services are contingent upon the ability to reach 
our workers in an expedient fashion. In addition, the accessibility of 
upper level management's to both foster parent leadership and 
individual foster parents has been extremely commendable.
    Another extremely serious problem we have had absolutely forever 
has been the lack of information given to foster parents about the 
children we are taking into our homes. Children have historically been 
placed without our being told imperative medical, psychological, and 
behavioral information, because that information was not communicated 
intra-agency to the placement workers. Imagine being a foster parent 
who takes a child into your home and finds out that the child sets 
fires, but you were not told. Because of this, children were often 
placed into homes that were not prepared for them, and the placements 
broke apart, or as we say, ``disrupted.'' In the last few months foster 
parents and staff have worked together on the development of a new 
``Placement Information Package''. The agency has promised to uphold 
the expectation that all relevant information available to the agency 
will be passed onto foster parents through this package so they can 
make appropriate decisions about placements in their homes. When CFSA 
workers actually begin using them, this will be another major 
improvement.
    In these last years, as a member of the foster parent leadership, I 
have spent much time at CFSA. My current experience is that there is 
active and diligent work being done towards improvement and reform. 
Staff, administration and foster parent leadership have put in many 
hours working on systemic issues. Foster parents have experienced 
significantly improved appreciation and inclusion from the upper level 
and a more acute consciousness of what we need to care for our 
children. We have seen much more energy spent on trying to address the 
issues of multiple placements, such as the introduction of Disruption 
conferences, which utilize clinical expertise to try to prevent the 
disruption of placements. We hope that these clinical interventions 
will be increased to include wrap-around services that will permit a 
``traditional'' foster parent to maintain a child they love in their 
home instead of having to transfer them to a much more expensive higher 
end therapeutic home to get services, as has been the case. We 
specifically recognize Clinical Services Administration, under Dr. 
Roque Gerald, for work in these areas.
    One of the major issues for the District of Columbia's foster 
parents, and indeed nationwide, is the lack of inclusion in decision-
making. This decision-making exclusion is two-fold and includes 
decisions about the individual children in your home as well as 
decisions about agency policy, regulation and practice. Nationwide, 
this lack of inclusion is sited as one of the major reasons that foster 
parents quit fostering. When a system can not retain its foster 
parents, any recruitment efforts, no matter how successful, are like 
recruiting into a bucket that has a hole in the bottom.
    To address the concern about lack of inclusion into agency policy 
and practice, Ms. Leticia Lacomba, Principle Deputy Director, began to 
work directly with joint working groups of foster parents and staff to 
revise and impact policy and practice guidelines. Involving foster 
parents in true partnership with staff and administration in this way 
has been a tremendous step forward and we want to acknowledge her for 
this accomplishment.
    Unfortunately, inclusion into the professional team for the 
children in our home has not been yet achieved, and will be discussed 
as we move into the discussion of the many challenges still ahead.
    Despite the good intentions and real improvement we have seen, the 
tasks ahead for CFSA regarding its foster parent community are still 
great. There are many areas in which the support and services we 
receive are inadequate to meet the needs of our children.
    Although we applaud the accessibility of the upper level 
administration to its foster parent community, many of the issues 
brought up to that level should have been resolved at lower and middle 
levels. What we see is that the infrastructure of CFSA has not yet 
improved to accommodate the changes being made at the upper level. As a 
result, balls are still always dropping on the lower and middle levels, 
problem resolution often goes around in circles, and the person who 
needs help gets bounced from one staff or unit to another. In addition, 
units themselves are often out of alignment with each other in the 
information they give to our families and in the processes they create. 
This causes much confusion to anyone trying to access services. Hours 
more appropriately spent parenting is spent in frustrating efforts to 
seek problem resolution. It is our recommendation that communication 
between units as well as internal to units be acknowledged as important 
job functions of program administrators and time be allotted for this 
purpose.
    Another infrastructure issue I would like to comment on is the 
reliance on social workers for routine tasks that could be accomplished 
by administrative support staff. When foster parents have to call 
social workers for something as simple as a birth certificate number, 
they may have to call over and over to reach a worker. This in turn 
clogs up the worker's voice mail which may make them less accessible to 
others. I can not tell you the countless times that I have had to call 
a social worker to get a social security number for one of my children. 
Quite frankly I am perplexed that the agency does not utilize 
administrative support for these clerical tasks within the social work 
unit, freeing the social workers to actually practice social work. It 
is our recommendation that CFSA assign one administrative assistant per 
(X) number of social workers for this purpose.
    In addition, although the responsiveness and inclusiveness of the 
upper level has been real and significant, the attitudes of true 
partnership have not yet reached the front lines. Many of the District 
of Columbia's foster parents have been operating as caseworkers 
themselves for years, handling all on their own the daunting tasks of 
finding resources for their children. Many have had no regular visits 
from workers, no phone calls, no help, no after hours support at all, 
and as such stand alone. Despite that, workers often invalidate that 
experience and when it comes to the right to make decisions, exclude, 
ignore and/or rebuff the foster parent's input.
    It is this inclusiveness into case planning for the children in our 
homes that is seriously lacking. In my own experience, for all the 
children currently living in my home, I have been invited to 
participate in a total of ONE administrative review, at which 
permanency plans and progress are to be discussed. Since these reviews 
are supposed to be happening every six months, either they are not 
happening at all or they are happening without my presence, input or 
feedback. In my ENTIRE experience as a foster parent, I have never been 
informed about a court hearing from my social workers, although I 
regularly attend due to notification from our children's GAL's. The 
agency is out of compliance with The Adoption and Safe Families Act 
(ASFA) on both of these forms of notification. We have been assured 
very recently that the technological and logistical barriers to 
notification have been resolved and that consistent notification of 
Administrative Reviews will now be implemented. We hope to report back 
to you on the successful intervention of this assurance. We trust that 
our notifications of court reviews will be next.
    There is much work ahead to address the complicated issues of real 
partnership between line workers and foster parents. We acknowledge 
that the agency has taken a first step by inviting us to participate in 
the training that new workers receive. I am personally very excited 
about the possibility of participating in these trainings. I think it 
is vital to a successful working relationship that the worker have a 
real understanding of how what s/he does or says may effect the foster 
parent's ability to open up to them and trust them, thus impacting the 
quality of care our children receive. It is imperative that social 
workers understand that they must give foster parents the same respect 
that they give the other professionals involved in the care and 
treatment of our children. We are the ones who are caring for these 
children day in and day out. Although I am very excited about these 
trainings, it is my hope that this is just the beginning. It is my hope 
that we will get to the point where we can expand this training to 
allow us to work also with those social workers who have been around 
for a while. After all, it was a veteran social worker with many years 
of experience who told my husband and me that we were too strict with 
my 17-year-old son when we put him on restriction for constantly acting 
out in school and having multiple suspensions. She recommended that he 
go into independent living. When we objected, saying that we had been 
parenting him since he was 11 years old and that we were 100 percent 
sure that he was not mature enough to handle the freedom that comes 
with an independent living program, she pushed for it and got it 
anyway. From the moment he entered the program my son went on a 
downward spiral that landed him in a psychiatric facility. There it was 
determined that he needed a more structured environment and we were 
asked if he could come back home to us. Although this particular 
incident occurred under a previous administration, lack of input into 
decisions about our children still continues. I feel this is a good 
example of the danger that can happen to our children when decisions 
are made by people who see them at the most once a month, and often 
much less, without taking into serious consideration the input of those 
of us who are parenting them every day.
    I think that it would be beneficial if we also recommend that 
social workers be given more training on how to access resources, both 
within CFSA itself and from the community. Access to resources remains 
a big problem for us. There is a lot of inconsistency in this area. 
Securing resources often depends upon the knowledge, workload and 
sometimes even personal feelings of your workers. A strong example of 
this lack of resource consistency is day care. Foster parents who live 
in the District of Columbia are entitled to day care services through 
the Office of Early Childhood Development. However, some workers can 
access it fast, some have to be taught by their foster parents or GAL's 
how to access it at all, and in fact one private agency has told their 
families that day care is not even available! Again this is a personal 
issue for me. My foster grandson was placed with us at the ripe old age 
of two months old and in spite of many, many phone calls and inquiries 
from both my husband and me, our little Jay was seventeen months old 
before daycare was secured. Had it not been for the untiring help of 
family and friends, as well as compassion and flexibility of my 
husband's and my employers we would not have been able to continue to 
parent this child who has known us as his grandparents since the day he 
was born.
    One resource is so very absent from the fabric of this city that it 
demands separate mention of its own. That resource is quality and 
timely mental health services. Our children are wounded; many have 
suffered emotional and sometimes physical abuse and all have suffered 
much loss. It is outrageous that their mental health needs have been 
addressed in such an inadequate manner. We do not know the answer, 
however, this problem is so paramount that it cannot go unaddressed.
    Another huge issue for us is Medicaid. Medicaid numbers may not be 
given to us until our child has been in our home for weeks or months. 
This creates a very serious situation when we need prescriptions 
filled. In addition, our numbers often become inactive, creating the 
inability to access services. Many of us have been at doctor's offices 
or pharmacies when the numbers have become inactive and we have had to 
leave without the services we need for our children. In addition, the 
lack of an operating Medical Consent to Treat Policy leaves us as well 
as the hospitals confused about who needs to sign for what treatments. 
We have been trying to get the agency to develop and implement a 
medical consent policy for over a year and a half, but to our knowledge 
there has been no significant progress made. This is of utmost urgency 
to us, because sooner or later a child will die because of the 
confusion surrounding what foster parents can or cannot consent to.
    Another issue for foster parents is the lack of availability of 
respite care. All parents need a break from parenting sometimes. 
Biological parents have the option of sending to their child(ren) to 
spend the weekend with a relative or family friend, or to visit with a 
classmate at his/her home. As foster parents, we don't have that option 
unless those persons can meet many criteria, including obtaining all 
the clearances that foster parents are required. This puts us in a very 
tough position. Not only are we asked to parent without significant 
breaks, we are parenting children who often have serious issues. Can 
you imagine all of a sudden the number of children in your family 
increasing by four? It happened to me three years ago. I got a call 
about a sibling group of four boys, ages 6, 8, 10, and 12. This was 
quite an undertaking as I am sure you can imagine. As delightful as the 
boys were, we began to notice almost immediately that one of our 
children had some pretty severe emotional problems and we began to seek 
out help for him. When it was all said and done he was diagnosed with 
severe depression and intermittent explosive disorder. It took about a 
year and a half for him to be diagnosed and for the doctors to 
determine the proper medications in the proper doses to help stabilize 
him. During that time our home was in constant turmoil with crisis 
after crisis involving him, while we were still trying to effectively 
parent his three siblings and my adopted daughter. When we asked for 
respite once a month so that we could regroup and be better able to 
parent our children we were told that respite was not available. The 
situation escalated to the point that the placement disrupted and he 
was placed in a ``Therapeutic'' home where the city not only pays 
significantly more for his care, but the therapeutic foster parents get 
respite every other weekend. This was very traumatic for all of us. He 
was not only separated from us, but also from his siblings who had been 
the only constant in his life. Mine is not the only story. Many foster 
parents can tell of situations where they feel access to respite would 
have enabled them to continue fostering a child rather than having the 
placement disrupt. I really believe that respite can be a big part of 
decreasing the number of disruptions as well as increasing foster 
parent retention. And a foster parent who is happy and wants to remain 
a foster parent is more likely to actively recruit other potential 
foster parents for the agency. Providing respite for foster parents is 
a win/win situation for all involved.
    In conclusion, I believe that we are seeing many seeds which have 
been planted under this administration which will lead to very positive 
change for foster families at CFSA, but many of those seeds have not 
yet blossomed into actual day-to-day improvement. There is still a 
great deal of work to do. Responsiveness, accessibility and 
inclusiveness of the upper level to its foster parents have been real 
and beyond rhetoric, as demonstrated by the cutting edge partnership 
lead by Ms. Lacomba. We have come very far in these ways. However, we 
have much farther to go before the infrastructure of CFSA supports and 
implement the philosophy of the upper level or the principles of best 
practice. To summarize, some specific areas we need to see improvement 
in are:
  --After hours crisis intervention for foster families outside of the 
        general hotline;
  --Quality and timely mental health evaluations and therapy;
  --Consistently active Medicaid numbers and cards;
  --Easily and consistently accessible emergency and planned respite 
        care for foster parents;
  --Timely day care;
  --Operating Medical consent to treat policy;
  --Increased team building efforts between social workers and foster 
        parents as well as between birth parents and foster parents;
  --Training of all social work staff on resource availability;
  --Strengthening communication between units so that information given 
        to families is both accurate and consistent;
  --Clear and consistent systems for problem resolution which free up 
        foster parents to spend our time and energy parenting our 
        children instead of going around in circles fighting for 
        services.
    Again, in closing we do believe that the agency is on the right 
path, but we must acknowledge the great need for them to develop an 
infrastructure that will allow for the kinds of changes necessary to 
give our children the care they deserve. I appreciate the opportunity 
to speak to foster parent concerns at this hearing. As an individual 
foster parent as well as the Deputy Director of FAPAC I will continue 
to be available to assist in system reform in any way I can, and to 
work with CFSA to develop its path of partnership with its foster 
parent community.

    Senator DeWine. Thank you very much. Ms. Sandalow.
STATEMENT OF JUDITH SANDALOW, EXECUTIVE DIRECTOR, 
            CHILDREN'S LAW CENTER
    Ms. Sandalow. Good morning, Senator DeWine, Senator 
Landrieu. Thank you for giving me the opportunity to speak 
today about the solutions to problems facing abused and 
neglected children in the District of Columbia.
    As you know, the Children's Law Center helps at-risk 
children in the District of Columbia find safe and permanent 
homes, and the education, health and social services they need 
to flourish, and provides comprehensive legal services to 
children, their families and foster, kinship and adoptive 
parents. My testimony today is focused on remedies that involve 
the Child and Family Services Agency, and that can be 
accomplished with targeted and specific Federal funding.
    The first days in foster care often determine the outcome 
of a child's life. When a child is injured in a car accident, 
an ambulance rushes the child to a hospital where a team of 
doctors and nurses drop everything to save that child's life. 
We all recognize that without this extraordinary effort, a 
child could die or be permanently disabled. That same urgency 
and those same resources should attend to the removal of 
adduced and neglected children from their homes.
    In fact, every day in the District of Columbia, children 
are permanently scarred because we don't treat these first days 
in foster care as an emergency. What is right for children is 
also right for the D.C. budget. Early and intensive 
intervention on behalf of children will speed reunification and 
it will speed adoption and it will prevent the financial and 
human costs of increased homelessness, incarceration and 
welfare dependence that is found among adults who spend their 
childhoods in foster care.
    I propose that Congress fund a pilot project within CFSA to 
provide early and intensive intervention for children as soon 
as abuse or neglect is reported. What you might ask, should 
such an emergency team do? On the first day that a child is 
removed from her home, an emergency team of social workers 
should be interviewing the child, their siblings, their 
parents, their neighbors, to find the nearest relative, a 
person who is appropriate to be a temporary caregiver while 
that family is restored. The emergency team should have access 
to a flexible fund to buy beds, clothes and if necessary, food, 
to ensure their relative can bring a child into their home 
immediately.
    One of our clients, a grandmother, has been waiting 45 days 
for benefits, while CFSA will not provide emergency funding for 
her to feed the grandchildren who she has taken into her home 
on an emergency case basis. The emergency team should provide 
drug treatment, homemaker services, parenting classes 
immediately for children and families so they can be reunified. 
All of these tasks and many more that I highlight in my written 
testimony, must be done within the very first few days that a 
child is removed from her home.
    Just as we staff the emergency room 24 hours a day and we 
would never consider closing it after business hours, we must 
have a child welfare emergency team 24 hours a day. Where a 
child is removed from her family, she needs an opportunity to 
visit her brothers and sisters and her parents in order to 
enhance the chance of reunification, but also to help her with 
that transition as she moves away from her birth family. But 
last week, a social worker said in open court at the District 
of Columbia's Family Court to a mother who was begging to see 
her children, that she and her children could only visit 
together 1 hour a week, and the reason that she gave was 
because CFSA didn't have the resources to staff a visitation 
center for longer hours that would provide more frequent 
visits.
    Can we really tell a child that she can't see her brothers, 
sisters and parents more than 1 hour a week because she has to 
give other little children the chance to see their families? 
Get in line, little girl, behind all the other children who 
need to see their families. I urge the committee to appropriate 
funds to CFSA to build and staff visitation centers in the 
community.
    Each center should be staffed by a social worker trained to 
work with parents on their parenting skills. And most important 
of all, the center should be open in the evenings and on 
weekends so that children don't have to miss school to see 
their families, and that parents can maintain employment so 
that they can bring the children back to live with them.
    Forty percent of all foster children in the District of 
Columbia are teenagers. Despite this staggering figure, 
unfortunately, CFSA has a woefully inadequate program to help 
teenagers prepare for adulthood. Today I would like to focus on 
one particular issue, which is helping teenagers find jobs, and 
that may be important to me because I am the parent of teenage 
boys who came to me out of the foster care system when they 
were in their preteen years, and I know how important it is for 
their development that they be able to find jobs. In part, they 
will have me as a safety net but other foster children won't 
have that kind of safety net.
    How is it that CFSA can help teenagers find jobs and give 
them the jobs skills necessary to make them productive 
citizens? One very simple option is to partner with local 
businesses to provide a job coach just like they do for 
developmentally disabled adults, to ease that new foster child 
into a job. I am confident that there are corporations in this 
city that would partner with CFSA. I understand that in 
California they reserve a certain number of government jobs for 
foster children entering the system to help them meet that 
transition. Well, they're part of our government family, so 
they save some jobs for them. Those are both very simple 
solutions, I think.
    But no matter how many programs are available or what 
philosophy there is in the child welfare system, the quality of 
the individual social worker is successful to the successful 
system.
    Senator DeWine has introduced legislation to provide loan 
forgiveness for lawyers and social workers who serve children. 
The Children's Law Center strongly supports this legislation 
and believes that it will increase the pool of highly qualified 
lawyers and social workers.
    Talented well-trained social workers, frequent family 
visits and early intervention won't help children if there are 
no services to help children heal, to rehabilitate parents and 
to support families. The District of Columbia has an extremely 
limited number of mental health providers. There are very few 
drug treatment beds. Homemaker and intensive in-home services 
are almost nonexistent. CFSA should be clamoring at your door 
asking for the funding to provide these services. They should 
have a comprehensive plan for developing and funding service 
providers.
    Although I applaud their recent efforts to evaluate the 
quality of service providers, and I understand that they are 
vigorously evaluating the outcomes of the service providers 
that they do have, I am disturbed by their silence regarding 
increasing the availability of services.

                           PREPARED STATEMENT

    A foster child is by law in the legal custody of the 
government. The government therefore has the right and the 
responsibility to parent that foster child, to meet the needs 
of every child as if she were our own child. I thank each of 
you in particular for taking that responsibility seriously, and 
for calling for supporting measures that will give every foster 
child the promise of a safe and loving home.
    [The statement follows:]
                 Prepared Statement of Judith Sandalow
    Good morning, Chairperson DeWine, Senator Landrieu and members of 
the Committee. My name is Judith Sandalow, and I am the Executive 
Director of The Children's Law Center here in Washington, DC. The 
Children's Law Center helps at-risk children in the District of 
Columbia find safe, permanent homes and the education, health and 
social services they need to flourish by providing comprehensive legal 
services to children, their families and foster, kinship and adoptive 
parents.
    Thank you for the opportunity to speak with you today about 
solutions to the problems facing abused and neglected children in the 
District of Columbia. At The Children's Law Center, we serve as the 
voice for many children. They share their fears and their hopes with 
us. Because the solutions I propose today are informed by these 
children and their experiences, I would like to start by sharing with 
you some of their stories.
    Sam, Tony and Terry were removed from their mother's home on a 
Friday evening and placed in a temporary group home. The very next day 
their aunt came to court and offered to have them live with her. 
Understandably, she did not have three beds in her home, nor did she 
have the money to pay for them. The CFSA social worker told the judge 
it would take three weeks to buy beds for the aunt and, until then, 
suggested that the boys stay in a group home. Only because The 
Children's Law Center purchased beds for the boys that afternoon were 
they able to be with their family and avoid spending three weeks in a 
group home.
    Seven-year-old DeMarco and nine-year-old Shawn were taken from 
their mother's home by the D.C. Child and Family Services Agency when 
it was discovered that their mother physically abused them. Despite the 
fact that Shawn and DeMarco have a loving and capable grandmother, CFSA 
put Shawn and DeMarco in a foster home. Only after their grandmother 
contacted The Children's Law Center were the children allowed to see 
their grandmother and, with more advocacy by The Children's Law Center, 
were the children allowed to live with her. The CFSA social worker 
admitted that she had not interviewed the children to find out if they 
had relatives nearby. DeMarco and Shawn spent a month living with 
strangers during the most traumatic moment of their lives, when they 
could have been with the grandmother they had known and loved all their 
lives.
    Federal assistance can have an important, direct and measurable 
impact on the District of Columbia's abused and neglected children. My 
testimony is focused on remedies involving the Child and Family 
Services Agency that will make a difference to Shawn, DeMarco, Sam, 
Tony and Terry and that can be accomplished with targeted and specific 
funding.
                    early and intensive intervention
    When a child is injured in a car accident, medical personnel have 
no qualms about stopping traffic to get an ambulance to the scene. A 
helicopter or an ambulance rushes the child to the hospital where a 
team of doctors and nurses drop everything to save a child's life or 
prevent permanent disability. A social worker contacts the parents, 
provides counseling and helps the family plan for the child's 
convalescence. We all recognize that without this extraordinary effort, 
a child will die or be permanently disabled.
    The same urgency and the same resources should attend the removal 
of abused and neglected children from their homes. In fact, every day 
in the District of Columbia children are permanently scarred and 
irrevocably deprived of their childhoods, their emotional well-being 
and their chance to become productive citizens because we do not treat 
these first moments, these first days in foster care as an emergency.
    What is right for children is also right for the D.C. budget. Early 
and intensive intervention on behalf of children will speed 
reunification and adoption, will reduce the number of children who 
languish in foster care at great cost to our city and will prevent the 
financial and human cost of increased homelessness, incarceration and 
welfare dependence that are found among adults who spent their 
childhoods in foster care.
    I propose that Congress fund a pilot project within CFSA to provide 
early and intensive intervention for children as soon as abuse or 
neglect is reported.
    What would such an emergency team do? There are three things that 
must be accomplished quickly: (1) find the best home for the child as 
fast as possible; (2) provide services and support to the child to 
repair the damage caused by abuse and to reduce the trauma of being 
separated from her family; and (3) provide the entire family with the 
services necessary to reunify them.
    How would an emergency team accomplish these goals?
  --On the day a child is removed from her home, social workers should 
        interview the child, his or her siblings, neighbors and 
        relatives to find an appropriate temporary caregiver for the 
        child. Frequently, grandparents, aunts, uncles and cousins 
        don't learn that a child is in foster care for weeks or months.
  --Quickly conduct criminal records checks, review the child abuse 
        registry and do a home study of the caregiver's home so that 
        the child can move in immediately.
  --Have access to a flexible fund to buy beds, clothes and if 
        necessary food to ensure that a relative can bring a child into 
        her home immediately, without forcing the child to stay--scared 
        and alone--in a group home or foster home while the relative 
        finds the money to prepare her home.
  --Convene a meeting of the child's family within 24 or 48 after 
        removal to see what resources the extended family can provide. 
        Often, family members can step in to assist an overwhelmed 
        parent, can arrange visits in their home for the child or can 
        even bring a child to live with them while the parent is in 
        recovery.
  --Provide transportation to the child's home school, so that she is 
        not further traumatized by having to adjust to a new school and 
        a new home at the same time.
  --Gather medical records from the child's pediatrician and area 
        hospitals to ensure that medical treatment and medication are 
        not disrupted.
  --Provide drug treatment, homemaker services, parenting classes and 
        other services a birth parent needs so that a child can be 
        safely reunited with her parents.
  --Do thorough medical and mental health assessments of children and 
        provide mental health services to assist children during this 
        traumatic time.
  --Arrange for a child to talk on the phone with brothers, sisters and 
        other family members during the initial, traumatic hours and 
        days after removal.
  --Provide transportation for frequent visits between children, their 
        siblings and important family members to reduce the trauma of 
        removal and maintain the familial bonds in preparation for 
        reunification.
    All of these tasks must be done within the first few days after a 
child is removed from her home. Just as we staff an emergency room 
around the clock and not only during business hours, we must staff a 
child welfare emergency team 24 hours a day.
               maintaining family ties through visitation
    In 1989, when the ACLU was preparing to file a class action lawsuit 
against the District of Columbia to address the needs of abused and 
neglected children, they interviewed local child advocates. One of 
these advocates who had worked with neglected children for years and 
was a founding member of The Children's Law Center, asked for only one 
thing. She said, ``if you can get family visits for foster children so 
that they can visit their brothers and sisters and their parents and if 
you can get those visits to happen on weekends and in the evenings so 
that children don't have to miss school to visit their families, then I 
will believe that your lawsuit made a difference.''
    Fourteen years later, this simple wish has not been granted. 
Fourteen years later--in fact just last week--a social worker said in 
open court to a mother who was begging to see her children that she and 
her children could only visit together one hour each week because CFSA 
didn't have the resources or the staff to have longer or more frequent 
visits.
    Can we really tell a child that she can't see her brothers, sister 
and parents more than one hour a week because she has to give other 
children the chance to see their families?
    I urge the committee to appropriate funds to the Child and Family 
Services Agency to build and staff visitation centers in the community 
so that children can see their brothers, sisters and parents as often 
as is necessary for them to maintain their family bonds.
    Today, just like 14 years ago, foster children visit with their 
parents in partially furnished offices--artificial environments that 
are a far cry from the apartments and houses in which families usually 
interact.
    I envision visitation centers that feel like a real apartment, with 
a living room that has games, books, a television and a radio. I 
picture a kitchen or at least a microwave oven, so that parents could 
show their love the way most parents do--by cooking a meal for their 
children. I imagine children playing in the center's backyard, a 
backyard that has a swing set and a basketball hoop. With an 
opportunity to visit in this home-like setting, parents could work on 
parenting skills and children could enjoy their brothers and sisters.
    Each center should be staffed by a social worker trained to work 
with parents on their parenting skills. Most important of all, the 
centers should be open in the evenings and on weekends so that children 
do not have to miss school and parents can maintain their employment.
              preparing teen foster children for adulthood
    Forty percent of all foster children in the District of Columbia 
are teenagers. Despite this staggering figure and the additional 
Federal funding that has been made available by the Chafee Act, CFSA 
has a woefully inadequate program to help teenagers prepare for 
adulthood. Today, I would like to focus on addressing one particularly 
important issue--helping teenagers find and hold jobs.
    CFSA social workers do not help teen find work, they do not help 
teens fill out job applications and they certainly do not create job 
opportunities for teenagers.
    How can CFSA help teenagers learn the basic job skills necessary to 
make them productive citizens? CFSA need look no further than their 
back door for a solution. The See Forever Foundation, started by David 
Domenici, son of Senator Pete Domenici, and by James Forman, Jr., owns 
several businesses that are run by teenagers, including a catering 
business and a print shop. The teenagers handle all aspects of the 
business, from marketing, to accounting to preparing and delivering the 
product.
    A business run by foster children would give these young people the 
training they need to become successful and independent adults.
    A simpler option that might help more teens more quickly would be 
for CFSA to partner with local businesses to guarantee that there were 
jobs available to teen foster children. If CFSA hired a job coach who 
worked with teens during their first weeks on the job--in a manner 
similar to job coaches for developmentally disabled adults--I believe 
that many employers would commit to hiring foster children.
    There are many other areas in which CFSA fails teen foster 
children. I am pleased to announce that beginning this Fall, The 
Children's Law Center will be able to devote more of its resources to 
advocating for teens. Because of the generosity of the Equal Justice 
Works Foundation and the Public Welfare Foundation, we have hired a 
lawyer who will help to train social workers and other child advocates 
about strategies for helping teen foster children make the transition 
to independence and adulthood.
             retaining and training capable social workers
    No matter how many programs are available or what philosophy 
governs a child welfare agency, the quality of the individual social 
workers is critical to a successful system. The April 2003 report by 
the GAO on the challenges confronting child welfare workers supports 
the observations of The Children's Law Center's staff. Repeatedly, the 
best social workers tell us that they are leaving CFSA because they 
have extraordinary administrative burdens with no secretarial support, 
that their caseloads are so high that they are worried about making 
mistakes that will jeopardize children's safety and health and that the 
quality of supervision they receive is extremely poor.
    CFSA Director Olivia Golden testified before this committee just 
last month that she was working to reduce caseloads for social workers. 
Reducing caseloads by hiring high quality social workers must continue 
to be a top priority for Ms. Golden. She must also focus on retaining 
and training social workers. This committee may be able to assist Ms. 
Golden by proposing legislation and targeting funding toward 
initiatives that will increase social worker retention.
    Senator DeWine has introduced legislation to provide loan 
forgiveness to lawyers who represent children. The Children's Law 
Center strongly supports this legislation and believes it will increase 
the pool of highly qualified lawyers who serve children. Similar 
legislation to provide loan forgiveness to child welfare workers would 
help ease the financial burden on these dedicated individuals.
    I also urge the Committee to consider providing funds to CFSA 
targeted toward providing administrative support to the social workers 
who work directly with children and families. Social workers spend a 
tremendous amount of time completing paperwork. As recently as last 
Fall, social workers were required to fill out requests in triplicate 
to renew each child's Medicaid eligibility. In addition, social workers 
have little assistance in transporting foster children to evaluations, 
doctors' appointments, family visits and therapy.
                   services for children and families
    Talented, well-trained social workers, frequent family visits and 
early intervention won't help children if there are no services to help 
children heal, to rehabilitate parents and to support families. The 
District of Columbia has an extremely limited number of mental health 
providers. There are very few drug treatment beds. Homemaker and 
intensive in-home services are almost non-existent. CFSA should be 
clamoring at your door, asking for more funding to provide these 
services. They should have a comprehensive plan for developing and 
funding service providers. Although I applaud their recent efforts to 
evaluate the quality of service providers, I am disturbed by their 
silence regarding increasing the availability of services.
    The short-term cost of providing services may be great, but the 
long-term benefit in personal and financial savings is extraordinary. 
For one D.C. family, it made all the difference. After the death of his 
wife, a father of three children was extremely depressed. He managed to 
hold down a full-time job, get dinner on the table and was available to 
his children every evening after work. For some reason, however, he 
couldn't manage to get the children dressed and ready for school in the 
morning and so the children missed school frequently. Rather than 
provide limited early morning homemaker services, CFSA sought to remove 
the children from his home. Only after the father's lawyer intervened 
did CFSA agree to provide services to the family. Obviously, the 
emotional and financial cost of splitting up this family pales in 
comparison to the short-term cost of helping them through this crisis.
    The Children's Law Center receives dozens of calls each year from 
relative caregivers and foster parents who want to keep a child in 
their home, but cannot handle the extreme behavioral and emotional 
needs of their child without assistance that CFSA refuses to provide. 
One foster mother called The Children's Law Center distraught because 
she had been trying to get services for her foster children for months. 
At the end of her rope, she had asked the social worker to remove the 
children unless CFSA gave her some in-home support and respite care. 
Three days later, she couldn't bear to hear them crying on the phone. 
The children had been with her for a year, called her Mommy, and were 
begging to come back to her. She wanted them home, but needed in-home 
mental health services to address their extreme behavioral problems. 
Only after intervention by The Children's Law Center were the services 
provided and the children returned to the foster mother they had come 
to love.
                               conclusion
    A foster child is, by law, in the legal custody of the government. 
The government, therefore, has the legal right and responsibility to 
parent that foster child. To me, this means that we must treat every 
foster child as if she or he is our own child.
    Thank you for taking that responsibility seriously and for calling 
for and supporting measures that will give every foster child the 
promise of a safe, permanent and loving home.

    Senator DeWine. Thank you very much, very helpful. Miss 
Bowens.
STATEMENTS OF:
        JACQUELINE BOWENS, VICE PRESIDENT FOR GOVERNMENT AND PUBLIC 
            AFFAIRS, CHILDREN'S NATIONAL MEDICAL CENTER
        DR. JOSEPH WRIGHT, MEDICAL DIRECTOR FOR ADVOCACY AND COMMUNITY 
            AFFAIRS, CHILDREN'S NATIONAL MEDICAL CENTER
    Ms. Bowens. Good morning, Senator DeWine and Senator 
Landrieu. Thank you very much for providing us with this 
opportunity to address the committee today about our role in 
caring for children in Washington, DC's foster care system. I'm 
Jacqueline Bowens, Vice President of Government and Public 
Affairs at Children's Hospital, and joining me this morning is 
Dr. Joseph Wright, who is the medical director of Advocacy and 
Community Affairs, as well as the medical director of the DC 
KIDS program. I'm going to spend a quick few moments giving you 
some background on the DC KIDS program, and turn it over to Dr. 
Wright to speak to some of the challenges we face in our vision 
for the future.
    The District of Columbia Kids Integrated Delivery System, 
DC KIDS, is a collaborative effort between CFSA and Children's 
Hospital to provide comprehensive health care services to the 
children in foster care in the District of Columbia. The 
arrangement allows for this vulnerable population of children 
to be evaluated and treated in a child-friendly pediatrics 
specific environment and provides for support, information and 
navigation of the complex systems of care for foster parents 
and their foster children. There is no paper work to complete 
and no cost to the foster parents of child. All children under 
the age of 21 and under the care of CFSA living with a foster 
family or in a group home are eligible for enrollment in the 
program.
    The agreement between CFSA and Children's Hospital provides 
coordination of ongoing healthcare services for children in 
foster care. First a child is brought to Children's DC KIDS 
assessment center for an initial screening before their first 
foster family placement. This initial screening is done by 
dedicated staff who complete a medical portfolio on each child 
before certifying that they are healthy enough for placement to 
a foster home. In addition, each time that a child's placement 
is disrupted, they return to Children's for a new assessment 
before being sent to their new placement.
    The child is enrolled in DC KIDS at the time of the initial 
assessment. Within 10 days, the DC KIDS program arranges for a 
comprehensive physical examination and a mental health 
evaluation to identify necessary services for the child and 
family. These may include early and periodic screening, 
diagnosis and treatment of illnesses, inpatient specialty care, 
and prescription services. From that point forward, the DC KIDS 
staff assists the foster families in navigating the complex 
health care system to provide for ongoing treatment for their 
foster child, everything from scheduling and confirming 
appointments to arrangement of transportation for specialty and 
follow-up services. The DC KIDS outreach coordinators are 
available to educate foster parents, social workers, in-service 
providers.
    We are again, very proud of the relationship that we've had 
in the DC KIDS program, and I'd like to just quickly talk about 
some of our successes since taking on the program. We each feel 
that we've come a long way since our first days on the job with 
DC KIDS. We have increased enrollment by over 400 percent. When 
we first assumed the program, there were less than 1,000 
children actively enrolled in the program; now we care for over 
4,000. Since May 2001, we have had 3,053 children come through 
our assessment center, and 1,870 children have returned for 
visits due to a disruption in their placement.
    We're also proud of the new technology we've developed to 
make the process easier for social workers. We provide computer 
terminals for the social workers on-site with all their 
required forms online and readily accessible to them. This way 
they can make productive use of their time while waiting for 
their child's medical assessment to be completed. And we get 
the information we need to accurately enroll the children in 
the program. We work very hard to minimize the time that the 
social worker spends on this process, reaching our goal of 90 
percent or more of the cases triaged in less than 2 hours by 
July 2002.
    Also, upon our assumption of the program, Children's also 
requested the creation of a new system to provide foster 
families with the prescriptions and other pharmaceutical items 
they needed in order to care for their children once they left 
our care. Working with CFSA, we developed a new electronic 
prescription pad that creates a voucher that is now accepted at 
a network of pharmacies throughout the city, allowing families 
to have 24-hour access to prescription services.
    These are just a few of our achievements with the program. 
At this point I would like to turn it over to Dr. Wright, who 
can address some of the challenges and our vision for the 
future.

                     STATEMENT OF DR. JOSEPH WRIGHT

    Dr. Wright. Again, Senator, we would like to thank you for 
allowing us to testify this morning. Jackie has already told 
you about some of the successes that we have achieved in the 
first almost 2 years of involvement with this program and I 
will address some of the specific challenges that we face.
    One that you have heard repeatedly this morning is in the 
area of mental health. This is a struggle citywide due to the 
lack of capacity for mental health services. There are simply 
not enough providers, beds and programs to adequately serve the 
children in this region, and not just the kids enrolled in DC 
KIDS, but for all children. As you might imagine, the DC KIDS 
population is especially vulnerable in this area. More than 50 
percent of these children require some type of mental or 
behavioral health intervention, and most on a ongoing basis.
    Children's Hospital has a 12-bed inpatient psychiatric unit 
which cannot absorb all the needs of this population. Further, 
our facilities are not equipped with the quiet rooms and 
restraints necessary to primarily treat severely mentally ill 
and out of control patients. As a result, we have tried to 
establish partnerships and collaborations with other community 
providers to whom we can refer DC KIDS when we are unable to 
primarily provide services. In this regard we serve as the 
coordination point, managing the care that these children 
require.
    The same situation exists with dental services. There is a 
nationwide shortage of pediatric dentists and we feel the 
shortage in the District as well. Many of the DC KIDS requiring 
dental care are children with special health care needs and 
must be seen by dentists who are appropriately trained. In 
order to address this problem, Children's has purchased half 
the time of two pediatric dentists who work at Sharpe and Mamie 
D. Lee, the District's two public schools dedicated to the 
special needs population. These dentists are dedicated to 
provide dental services to our DC KIDS population. While this 
arrangement has helped, it is insufficient.
    Let me address briefly court-ordered mental treatment. 
Children's works hand-in-hand with the judges in the Family 
Court to ensure appropriate health care services are provided 
to this vulnerable population. However, there are no better 
advocates for these children than the judges. Their 
sensitivities to these children's needs demand their strict 
attention, which they provide. However, a growing concern for 
our institution and the DC KIDS program is the amount and 
nature of court-ordered medical treatment that we are 
experiencing.
    As cases are adjudicated, specific medical treatment or 
therapy is frequently ordered without any physician 
consultation. As the medical provider for these children, we 
are forced to comply with the court order even if it is 
medically inappropriate. Unfortunately, such court-ordered 
referrals are continuing to grow. From October 2002 to April 
2003, the number of court-ordered outpatient referrals grew 
from 10 percent of our referrals to nearly 20 percent. We have 
begun to educate the judges about the difficulty of these very 
specific orders for medical care, but we have a long ways to 
go.
    Now, I want to make it very clear. We realize that the 
judges are passionate advocates for these children. In the best 
interests of these most vulnerable kids in our population, we 
simply feel that it is our obligation to help educate all 
involved in their care, including the Family Court, about the 
best ways to work together.
    Lastly, an internal challenge that we face is the 
appointment no-show rate. In some areas, this is as high as 50 
percent. Even though we coordinate transportation services for 
these families, it does not help. This results in a negative 
domino effect. Children are not getting necessary care, 
frustrated physicians who block out sessions to treat DC KIDS 
only to have none of them show. The problem is then compounded 
by other needy children in the community who may be waiting 
several weeks for an appointment.
    Now at Children's Hospital we continuously strive to make 
things better, and I would be remiss if we didn't offer some 
ideas and potential solutions for the problems that I have 
identified. Jackie has already alluded to our ideas in the area 
of information technology and we envision an assessment program 
that will be a model for the rest of the country. This 
assessment process will build on the foundation already 
established.
    The first step will be complete integration of the CFSA 
computer system with our system in the DC KIDS program. 
Currently, as we enroll children at the time of their initial 
assessment, this often occurs before CFSA has confirmed 
placement. As a result, it requires a DC KIDS staff member to 
contact the social worker or CFSA to locate the child in order 
to make their follow-up appointments. This causes a tremendous 
bottleneck in waiting for the address and contact information. 
If we were fully integrated with the CFSA system, we could 
simply log on to the child's file and see the placement 
immediately after it is entered into the system by the social 
worker. This would save immeasurable time.
    We also envision a program that makes health care for 
foster children as accessible as possible to the foster family. 
Transportation is one of the biggest barriers for our foster 
families, and we know that it contributes substantially to the 
aforementioned no-show rate. We believe that if we owned a DC 
KIDS shuttle and driver that were dedicated solely to providing 
transportation to foster families and children for their 
appointments, more foster children would receive their care in 
a timely manner.
    I have already mentioned our dental facilities. Currently 
we do not have the facilities or space to cover all the needs 
of children at Children's Hospital. We are land-locked and do 
not have room for expansion. Our vision for the future, 
however, includes a system of community-based partners to 
provide all services needed by the DC KIDS children. We are 
making strides towards that goal with the recent awarding of a 
State innovations grant from the Department of Health and Human 
Services that we will be implementing in conjunction with the 
D.C. Department of Health to develop state-of-the-art 
community-based dental programs at the District's two special 
needs schools.
    Lastly and clearly the most difficult clinical element in 
managing the DC KIDS program is the mental health capacity 
issue. The number of patients seeking acute care for mental 
health problems has exploded at our institution over the past 2 
years. The volume for such crisis has more than tripled since 
the closure of the emergency psychiatric facility on the campus 
of D.C. General in 2001.
    Because of the aforementioned physical limitations at our 
institution, we know that we must develop partnerships with 
other community providers, but there are some things that can 
be done immediately as well. For example, we are planning new 
programs to operate a mental health urgent care center at 
Children's Hospital in the evenings and on the weekends. We 
believe this will help alleviate some of the strain that is 
being felt by our emergency department. We believe this mental 
health urgent care center will help to redirect patients 
currently occupying beds in the ER that are needed for children 
with medical and surgical emergencies.
    Our proposal is currently being considered by the D.C. 
Department of Mental Health and they have agreed to provide 
funding for a psychiatric social worker. However, ideally, 
funding is needed to support three social workers, a security 
guard, a disposition staff, and one full-time position in order 
to properly support such a program. Above all, the DC KIDS 
population needs stability. What is best for these children is 
a comprehensive health system that addresses their emotional, 
medical and educational needs.

                           PREPARED STATEMENT

    It is critical that they involve stable foster families and 
consistency among providers when they seek this treatment. 
Children that face disruption in placement as well as 
fragmented medical care will have their baseline problems 
further compromised.
    I would like to thank you for the opportunity to testify 
and will be happy to answer questions at the end of the panel.
    [The statement follows:]
    Prepared Statement of Jacqueline D. Bowens and Dr. Joseph Wright
    Mr. Chairman, thank you very much for the opportunity to address 
the committee today about our role in caring for the children in 
Washington, DC's foster care system. I am Jacqueline D. Bowens, Vice 
President of Government and Public Affairs at Children's Hospital. 
Joining me today is Dr. Joseph Wright, who is the Medical Director of 
Advocacy and Community Affairs, as well as the Medical Director of the 
DC KIDS program.
                   background on children's hospital
    Children's Hospital is a 279-bed pediatric inpatient facility 
located in the District of Columbia. For over 130 years, we have served 
as the only provider dedicated exclusively to the care of infants, 
children, and adolescents in this region. It is our mission to be 
preeminent in providing health care services that enhance the well-
being of children regionally, nationally, and internationally.
    The Children's system includes a network of five primary care 
health centers located throughout the city, and a number of 
pediatrician practices throughout the region, providing stable medical 
homes for thousands of children. We also operate numerous regional 
outpatient specialty centers in Maryland and Virginia, providing access 
to high quality specialty care right in the communities that we serve. 
We are proud to be the region's only Level I pediatric trauma center.
    Children's Hospital serves as the Department of Pediatrics for 
George Washington University medical school, and runs a highly-
respected pediatric residency program, providing education and 
experience to the next generation of pediatricians, pediatric 
specialists, and pediatric researchers. We also conduct significant 
research within Children's Research Institute, with funds from the 
National Institutes of Health, the Health Resources Services 
Administration, the Department of Defense, and countless private 
funders. Our researchers have received national recognition for recent 
breakthroughs including identification of the gene associated with 
matasticizing brain tumors, and discoveries related to muscle 
development for muscular dystrophy patients.
    Recently Children's Hospital was named as one of the nation's ``Top 
Ten'' pediatric institutions in the country by Child Magazine, based on 
stringent quality and outcomes measures. Our Hemotology/Oncology 
program was ranked fourth in the nation. We are the only such facility 
in the region to receive this honor.
    Locally, we also work in collaboration with the District of 
Columbia Department of Health to operate the District's School Health 
program, employing all the school nurses in the public schools, 
including 21 charter schools. And we are very proud of our affiliation 
with the District's Child and Family Services Agency (CFSA), in which 
we work in conjunction to operate the medical program for children in 
foster care called DC KIDS.
                   background on the dc kids program
    The District of Columbia Kids Integrated Delivery System (DC KIDS), 
is a collaborative effort between CFSA and Children's Hospital to 
provide comprehensive health care services to the children in foster 
care in the District of Columbia.
    The DC KIDS program was first established by CFSA as a medical 
management model. The initial contract went to the former Public 
Benefits Corporation and DC General Hospital. Prior to the closure of 
DC General Hospital and the PBC in early 2001, CFSA approached 
Children's to absorb the program on an emergency basis ``as is,'' with 
the intent of eventually establishing a more formal long-term 
relationship--which we did. Children's assumed the DC KIDS program on 
May 1, 2001 after a rapid transition. Our current agreement runs 
through December 31, 2003.
    The arrangement allows for this vulnerable population of children 
to be evaluated and treated in a child friendly, pediatric-specific 
environment. It provides each child with a continuous and coordinated 
system of services. DC KIDS supports, informs and navigates the complex 
systems of care for foster parents and their foster children. There is 
no paperwork to complete, and no cost to the foster parent or child. 
All children under 21 years of age and under the care of CFSA, living 
with a foster family or in a group home, are eligible for enrollment in 
the program.
    The agreement between CFSA and Children's Hospital provides 
coordination of ongoing health care services for children in foster 
care. First, a child is brought to the Children's DC KIDS assessment 
center for an initial assessment, before their first foster family 
placement. This initial screening is done by dedicated staff who 
complete a medical protocol on each child before certifying that they 
are healthy enough for placement into a foster home. In addition, each 
time that a child's placement is disrupted, they return to the 
Children's for a new assessment before being sent to their new 
placement.
    The child is enrolled in DC KIDS at the time of the initial 
assessment. Within 10 days, the DC KIDS program will arrange for a 
comprehensive and thorough physical examination and a behavioral/mental 
health evaluation. Once completed, necessary services for the child and 
family are identifed, such as:
  --early and periodic screening
  --diagnosis and treatment of illnesses
  --dental services
  --immunizations
  --eye care
  --hearing services
  --mental health services
  --substance abuse services
  --developmental services
  --in-home services
  --inpatient and specialty care
  --prescription services
    From that point forward, DC KIDS assists the foster families in 
navigating the complex health care system to provide for ongoing 
treatment for their foster child. The DC KIDS team schedules and 
confirms appointments, and arranges for families to receive care at the 
Children's Health Center and therapists located in close proximity to 
their neighborhoods. When that is not possible, the staff arranges for 
transportation--this occurs most often for specialty and follow-up 
services. DC KIDS outreach coordinators are available to educate foster 
parents, social workers and service providers by answering questions 
about enrollment and eligibility.
                             our successes
Increased Enrollment
    We at Children's Hospital feel that we have come a long way since 
our first days on the job with DC KIDS. We have increased enrollment by 
over 400 percent. When we first assumed the program, there were less 
than 1,000 children actively enrolled in the program--we now care for 
over 4,000. Since May 2001 we have had 3,053 children come through our 
assessment center, and 1,870 children have returned for visits due to a 
disruption in their placement.
Enhanced Technology
    We are proud of the new technology we have developed to make the 
process easier for the social workers. We provide a computer terminal 
for the social workers on site, with all their required forms on line. 
This way they can make productive use of their time while waiting for 
the child's medical assessment to be completed, and we get the 
information we need to accurately enroll the children in the program. 
We have worked very hard to minimize the time that the social worker 
spends in this process, reaching our goal of 90 percent or more of the 
cases triaged in less than 2 hours by July, 2002.
Pharmacy Vouchers
    Upon our assumption of the program, Children's also requested the 
creation of a new system to provide foster families with the 
prescriptions and other pharmaceutical items they needed in order to 
care for these children once they left our care. Working with CFSA, we 
created a new electronic prescription pad that creates a ``voucher'' 
that is now accepted at a network of pharmacies throughout the city--
allowing our foster families to receive both prescription and over-the-
counter products for their new foster child.
                           dc kids challenges
    While we are very proud of these achievements, we acknowledge that 
there is so much more that needs to be done to overcome the challenges 
that Children's, CFSA, and the entire system faces.
Mental Health
    One challenge that is a struggle city-wide is the lack of capacity 
for mental health services. There simply are not enough providers, 
beds, services and programs to adequately serve the children of this 
region--not just children enrolled in DC KIDS, but for all children.
    The DC KIDS population is a very vulnerable one. More than 50 
percent of these children require some type of mental or behavioral 
health service, most on an ongoing basis. Children's Hospital has a 12 
bed inpatient psychiatric unit, which cannot absorb all of the needs of 
this population. Children's Hospital does not have the facilities such 
as quiet rooms and restraints that are needed to treat the severely 
mentally ill; patients needing that type of care must be treated 
elsewhere. As a result, we have tried to establish partnerships and 
collaborations with other community providers to refer our DC KIDS 
population when we are unable. We serve as the coordination point, 
because we simply cannot provide all of the services needed. More of 
this collaboration needs to be done.
Dental Services
    The same situation exists with dental services. There is a nation-
wide shortage of pediatric dentists, and we feel that shortage in the 
District as well. Many of the DC KIDS that need specialized dental care 
are ``special needs'' children, and must be seen by a dentist that is 
appropriately trained. In order to address this problem, Children's has 
purchased half the time of two pediatric dentists who work at two of 
the District's special needs schools. These dentists are dedicated to 
provide dental services to our DC KIDS population. While this 
arrangement has helped, it is insufficient.
    One recent strategy has developed with the award of $450,000 in 
funding from the Department of HHS, through a State Innovations Grant 
to the District of Columbia. The District was one of five states to 
receive this grant, which is intended to spur states into finding new 
and innovative ways to improve access to health care. Children's 
partnered with the DC Department of Health to create a program with two 
state-of-the-art dental clinics in schools for children with special 
health care needs. The centers will use telemedicine tools to link 
patients with pediatric dentists and hygienists. This will allow us to 
focus on the provision of dental services to the most vulnerable 
children, a population which includes many foster children. It is one 
step towards a comprehensive ongoing strategy in this area.
Focus on Young Children
    Another challenge that Children's faces with this population is the 
orientation of our facility primarily on younger children, as the only 
acute care facility solely dedicated to pediatrics in this region. 
Although we are licensed to treat patients up to age 21, and do so, we 
have met challenges in providing for the unique needs of the older DC 
KIDS population. As with mental health, to meet this challenge, we have 
had to build partnerships and collaborations with outside community 
providers, serving as the coordinator of those services instead of the 
primary provider.
Court-ordered Medical Treatment
    Children's works hand-in-hand with the judges and the Family Court 
to assure appropriate health care services are provided to this 
vulnerable population. There are no better advocates for these children 
than the judges. Their sensitivities to these children's needs demand 
their strict attention, which they provide. But a growing concern for 
our institution and the DC KIDS program is the amount and nature of 
court-ordered medical treatment. As these cases get adjudicated, often 
times a specific medical treatment or therapy will be ordered without 
any physician consultation. As the medical provider for these children, 
we are forced to comply with a court order, even if it is medically 
inappropriate for the child. Our physicians have great difficulty in 
treating a child in a manner they feel in unnecessary, regardless of 
whether the court has ordered it or not. For example:
  --It is common to receive an order to admit child for an inpatient 
        psychiatric stay for a specified number of days. The child may 
        not need to be admitted for that period of time--they may be 
        appropriately released in half the time. But because of the 
        order, the child may be required to remain in the inpatient 
        psychiatric unit for the full number of days prescribed in the 
        court order. These types of social admissions are not always in 
        the best interest of the child.
  --Another example is a court order for occupational therapy within 14 
        days. But an occupational therapist cannot treat a child 
        without a physician's order. So DC KIDS must first arrange a 
        visit with a physician for an evaluation before an appropriate 
        occupational therapist can be scheduled. It is usually 
        extremely difficult to accomplish this within the short time 
        frame usually ordered by the courts.
    Unfortunately, such court-ordered referrals are continuing to grow. 
From October, 2002 to April, 2003, the number of court-ordered 
outpatient referrals grew from about 10 percent of our load to nearly 
20 percent. We have begun to educate the judges about the difficulty of 
these very specific orders for medical care, but we have a long way to 
go.
    We want to make it very clear--the judges are passionate advocates 
for these children. They demand the very best of service and care, with 
the children as their number one priority. Our task is to educate CFSA, 
the judges and the Family Court, social workers and families about the 
best ways to work together.
Transportation Problems
    Another internal challenge we have with this population is the high 
rate of ``no-shows'' we encounter. We make every effort to expedite and 
facilitate appropriate medical care for these very vulnerable and needy 
children--but it is to no avail if the foster family does not bring 
them to their appointments. Even though we coordinate transportation 
services for them, it often does not help. The result is a negative 
domino effect: children, who are not getting necessary medical care; 
frustrated physicians, who block out entire days or afternoons to treat 
this population, only to have none of their appointments show up; and 
other needy children in the community who may be waiting several weeks 
for an appointment. We've got to find a better way.
                       our vision for the future
    At Children's Hospital we continually strive to make things better. 
We have ideas and solutions for which we are searching for ways to 
implement.
Information Integration
    We envision an assessment program that could be a model for the 
rest of the country. This assessment process would build on the 
foundation we have created. The first step would be complete 
integration with the CFSA computer system.
    Right now, when we enroll the children at the time of their initial 
assessment, often this is before CFSA has confirmed their family 
placement. This requires a DC KIDS staff member to contact the social 
worker or CFSA to locate the child in order to make their follow-up 
appointments and comply with the 10-day window to complete the physical 
and mental health assessment. Waiting for address and contact 
information creates a major bottleneck in the system. If we were fully 
integrated with the CFSA system, we could simply log into the child's 
file and see the placement immediately after it is entered into the 
system by the social worker. It would save immeasurable time.
    In addition, integration would eliminate duplication of effort. 
Right now, we keep the medical records and CFSA keeps the complete 
record. The medical information gets entered in at Children's, and then 
has to be manually re-entered into the CFSA system. Placement 
information gets entered into the CFSA file, and then has to be 
manually re-entered into the medical record. There is a lot of 
exchanging of information and data that could be completely eliminated 
if the two systems were integrated.
Dedicated Transportation Service
    We also can envision a program that makes health care for foster 
children as easy and convenient as possible for the foster family. 
Transportation is one of the biggest barriers for our foster families, 
and we know that it contributes substantially to our ``no-show'' rate. 
If a foster parent is unable to get the foster child to a scheduled 
appointment, it is a delay in care for that child. Although the DC KIDS 
program helps make transportation arrangements, it is an ongoing 
problem. We believe that if we owned a DC KIDS shuttle and driver that 
was dedicated solely to providing free transportation for foster 
families and children to their medical appointments, more foster 
children would receive their care in a more timely manner.
Education and Training
    We also believe there would be great benefit and improvement of the 
system if there were opportunities for outreach and education--to 
families, to judges, to social workers, and other partners who touch 
the lives of these children. Annual training for all these groups, we 
are certain, would go a long way.
Mental Health Models
    One of the most difficult pieces of this is the mental health 
capacity issue. Because of our physical limitations at our institution, 
we know that we must develop partnerships with other community 
providers. But there are some things that could be done immediately as 
well. For example, we are planning to pilot a new program to operate a 
mental health urgent care center at Children's Hospital for nights and 
weekends. It would be housed in the outpatient psychiatric department 
as a mental health urgent care center in the off hours. We believe this 
will help alleviate some of the strain that is being felt by our 
emergency room. When St. Elizabeth's closed, we were told to anticipate 
an increase of about 10 percent in our emergency room. Instead, 
emergency room visits for mental health crisis have tripled in the last 
ten months. We believe this mental health urgent care center will help 
to redirect patients that are currently occupying medical/surgical beds 
in the emergency room that are needed for children with physical 
issues. Our proposal is currently being considered by the DC Department 
of Mental Health, and they have agreed to provide funding for one 
social worker. But the rest we are scraping together for this pilot, to 
see whether or not it would be beneficial for the patients and for the 
facility. Ideally we need funding for three social workers, a security 
officer, a disposition staffer, and one full-time physician to operate 
an ideal program.
    We also would support the expansion of the DC Department of Mental 
Health 24-hour access help line and mobile teams. This would allow 
patients to contact DMH directly, and receive care right in their 
community. Not every child needs to come to the hospital--they do now 
because that is the only place they know to get services. But expansion 
of community services like the mobile teams could be very helpful.
    Another component that is lacking for the DC KIDS population is a 
day treatment program. Often a child is not in need of hospitalization, 
but they also need more structure and care than weekly therapy. A day 
treatment program is a structured ``in-between'' step that could be 
very valuable for those children who are in between hospitalization and 
less rigorous treatment they can receive in the community.
    Above all, the DC KIDS population needs stability. They come to us 
with developmental issues, and problems with attachment and trust. What 
is best for this kind of vulnerable population is a comprehensive 
mental health system that addresses their emotional, medical, and 
educational needs. It is critical to have the involvement of stable 
foster families, and consistency with the providers that they see for 
treatment. Those children that face disruption in their placement, 
coupled with fragmented care that shuffles them from provider to 
provider, only worsens their problems with attachment and trust. 
Stability is key.
    Children's hopes to utilize current research that suggests more 
targeted cognitive behavior psychotherapy, carefully re-evaluated every 
3-4 months, will lead to better outcomes--better resilience, better 
social skills, and better adjustment in the future.
Dental Care
    Our current facilities will not cover all the dental needs of the 
children. We are land-locked, and have no room for expansion. Our 
vision of the future of dental services includes a system of community 
based partnerships to provide all the services needed by DC KIDS 
children.
    Thank you very much for the opportunity to testify before you 
today. We are very proud of our efforts in caring for this vulnerable 
population, and look forward to even greater successes with the DC KIDS 
program in the future.
    We would be happy to answer any questions you may have.

    Senator DeWine. Doctor, thank you very much. Mr. Miller.
STATEMENT OF DAMIAN MILLER, STUDENT, HAMPTON UNIVERSITY
    Mr. Miller. Good morning, Senator Landrieu and Senator 
DeWine, and distinguished guests, for the privilege of allowing 
me to address the committee on concerns that I have and things 
that need to be improved, as well as the positives of the D.C. 
foster care program. First, let me say, my name is Damian 
Miller. I am a rising senior at Hampton University. I have been 
part of the D.C. foster care program since the age of 7 on and 
off. I have had a very unique experience, to say the least, 
with some positives and some negative things.
    First, let me focus on the areas that I feel need 
improvement, starting, I would like to say that I think the 
training for many parents should be more intense and with this 
training, I think that there should be an emphasis on treating 
the kids like they are part of the family. I know in many homes 
that I have been in, I found that things like family picnics, 
we were not included in. Also, other youths of my age were not 
included in things like that, simple things like allowing the 
kids to play with other kids in the house and use the 
refrigerator, and just do things that are part of the family. I 
think that is definitely essential and a part of making them 
feel like they are in the family and that you really care about 
them.
    Also, I think that the training should encourage the 
parents to attend PTA meetings and reward you for good behavior 
and, you know, academic achievement. I feel that I was always 
punished when I did bad, but when I came home with good grades, 
I wasn't rewarded, and I think that with any child, you should 
definitely reward them, you know, not just always hound them, 
and I think that should be an important part of the training.
    Also, I think it's important that we rid the system of 
parents that are in it for the money. I think that there are 
many parents that I have been with that I feel are definitely 
in the system, you know, for a check. And even good foster 
parents, I remember being in good foster homes, and I would 
have good parents, but the fact that the agency would allow 
them to bring in three or four extra kids, they were doing a 
good job with me but when you brought in three or four other 
kids, I mean, can they really handle that? And it definitely, 
you know, played a negative effect on my placement with them.
    I think that workers should make sure that the funds are 
actually used for the kids. A lot of the clothing allowances 
and things of that nature, I missed out on, and other youth 
that were in the home with me, they didn't receive adequate 
funds to go clothing shopping, an allowance, you know, and 
teaching them good economics, that wasn't something that was 
taught to me in these homes. And I think social workers should 
really go out of their way to make sure that these funds are 
really being used to better the youth and not just for the 
parents.
    And part of that, I think that there should be a limit on 
how many kids that a person can get, and not just based upon 
home size. Just because they have four bedrooms, you know, 
doesn't mean that they should have four or five or six kids. It 
should be based upon, you know, are they working well with two 
kids, you know, should you put this third kid in. I think that 
that's something that should be looked at and not just the size 
of the house.
    Also, I think that recordkeeping is something that's very 
important, and I know one of the panelists touched on that. 
Social Security cards, birth certificates and things of that 
nature, I cannot tell the committee how many times I have tried 
to apply for summer jobs and things of that nature, and a 
simple copy of my Social Security card could not be found or a 
birth certificate or things of that nature. I think vital 
recordkeeping is essential and definitely something that needs 
to be improved within CFSA.
    I think that one thing that should be expanded is family 
visitation time. Agencies like For Love of Children provide 
once-a-month time when foster kids are allowed to see their 
parents. I think that that's a very positive thing and I think 
that should be expanded to all agencies, because as Senator 
Hillary Clinton's book says, it takes a village to raise a 
child, and I think their families should be included in that 
village.
    I think that helping better the relationship with the 
families is definitely a must. I think that these sessions were 
always great to me because I would meet uncles and cousins that 
were coming, encouraging me with better grades, and like I 
said, I think the visitation thing is very important and should 
be expanded.
    The positive areas that I think should be expanded and the 
great improvement I have seen, programs like CFSA's Keys for 
Life has been extremely positive for me. In this program youth 
are encouraged to excel academically and given money to pursue 
a higher education. Like I said, it has been a very positive 
experience, and in fact I would call it the most positive out 
of my years in the D.C. foster care system. It has given me an 
unbelievable opportunity to attend college and definitely 
encouraged me along with many other youths to better ourselves 
and our future.
    The first semester at Hampton University during my freshman 
year I didn't do so well, and Keys for Life really stayed on me 
and kept me focused to better myself, and since then, I'm a 
rising senior now and I have been on the dean's list ever 
since. So programs like Keys for Life are definitely essential 
and a great way to help youth.
    I think that one thing I have seen improvement in over the 
years is that social workers today are not as swamped with 
caseloads like they used to be when I first came into the 
system. It was very hard to even talk to my social worker, but 
now that's something that has improved and I think that it's 
critical that it improves even more, because when you have a 
social worker that's not swamped with caseload, they can give 
the youth individualized attention which definitely is always a 
positive.
    And I think something that's also important is mentors. I 
have had mentors over my years in CFSA and they have helped me 
a great deal, and I think that should be something that should 
be mandatory for all youth if possible, that they be given a 
mentor or someone to look up to and provide guidance to them.
    And also, lastly, I would like to mention programs like the 
Orphan Foundation. Providing internships on Capitol Hill for 
youth this summer, CFSA will be providing internships because 
of the Orphan Foundation, and programs like that are positive.
    Thank you for allowing me to come and testify.
    Senator Landrieu [presiding]. Thanks to all the panelists 
today for coming here and presenting well-put-together 
presentations, and for concentrating on some of the positive 
efforts that are being made, and still being forthright in 
pointing out some of the weaknesses that still need to be 
addressed.
    Senator DeWine will be back with us. He had to make a 
quorum for another committee, but he does have questions, so I 
will take the first round and he will be back shortly.
    Damian, just start with you. For the record, if you can 
remember, how many foster care placements and social workers 
have you had since the age of 7?
    Mr. Miller. Sure. Approximately nine placements and maybe 
eight to nine social workers also.
    Senator Landrieu. Okay. I wanted to get it on the record 
and I want to thank Damian for being here and sharing his 
experience and his commitment to advocate for the 9,000 
children or so that are within the universe of this discussion 
this morning, and as well as the 500,000 children in the 
country today that are in the foster care system. Without 
leaders like Damian, we would have an even harder time trying 
to figure out some of the solutions. Obviously one of the goals 
of our work is to try to achieve one placement, at the most two 
per child and one social worker for each child, to give him or 
her the consistency over time. There will be turnover, so one 
is not always going to be possible, but that ideally would be 
our goal, one case worker, one placement, one judge, one 
permanency plan, and that is what I would like us to keep in 
mind as we think about Damian's future and how hard he has 
worked and how much he has achieved under these difficult 
circumstances.
    Senator DeWine and I are very pleased to be part of the 
agencies and offices that will be offering internships. Damian, 
I might specifically request you, since I have met you now, but 
we are not supposed to pick our young people for the summer. 
But both Senator DeWine and I look forward, given our 
experience this last summer, of having these interns come into 
our office.
    Let me ask just a couple of questions. One, there are so 
many, but one I would like to pursue is this seemingly model 
that's developing here with Children's Hospital. Ms. Sandalow, 
I think the car accident analogy that you referred to is an 
excellent one. We would not leave a family involved in a car 
wreck on the highway and not give them immediate attention. 
This is exactly the same kind of thing that happens when there 
is basically a breakdown or a wreck in a family, and that 
emergency care, the first 24 to 48 hours is crucial for the 
health and development of either that group of individuals or 
one individual that has been the victim of such an accident. It 
seems as though we're developing a fairly good model here with 
Children's Hospital and with DC KIDS to do that early 
evaluation.
    My question is, you were saying that you have seen 4,000 
children. I think there are 9,000 in the universe. Am I looking 
at the right number? What is preventing, or what is stopping 
the system or slowing it down for all the children that are 
removed from the home to get to this evaluation center where a 
lot of wonderfully good things could be done in the first 24 or 
48 hours? Medical records could be compiled, an evaluation 
could be conducted, a social worker or case worker could make a 
fairly quick assessment of the appropriate temporary placement, 
preferably a kinship placement, which is what we always like to 
reach to, a kinship placement or a neighbor, until an 
appropriate maybe interim placement can be made, and then the 
work begins to try to move that child either back to 
reunification with the family, or on to a permanent adoption. 
In the new Federal law it refers to temporary foster care of no 
more than 18 months.
    So let's talk about what might be a barrier for setting 
that as a model, maybe Miss Bowens and all of you could 
comment. Is that the model we're trying to achieve, and what 
are the barriers?
    Dr. Wright. Let me just start by saying the point of entry 
for children into the DC KIDS program is either an initial or a 
change of placement, so that the universe of children who are 
in stable homes and represent perhaps the 5,000 that represents 
the gap between the 4,000 that we have enrolled and the 
universe of children, are not accessible to us through the DC 
KIDS model. However, let me also say that the full universe of 
children in foster care is a population in which we are very 
interested and would very much like to access those children 
for the purposes of some of the things that Damian has 
validated for us, which is very encouraging to see, to hear, 
that we're interested in education, we're very much interested 
in mentorship and working with the families in the foster care 
system, the entire foster care system and not just the ones 
that enter into the DC KIDS program because there has been a 
change in placement.
    And one of the barriers that I alluded to in my testimony 
was from the standpoint of information technology, we have 
access only to the kids in the DC KIDS database, and there is 
not an interface there.
    Senator Landrieu. Thank you for your clarification. Did I 
understand you correctly that after the initial placement that 
every child that has come into the D.C. system has to be 
evaluated at your center?
    Ms. Bowens. No. We only have access to the children since 
we assumed the program, and that would only be under the 
assumption that they were still in the homes that they were in 
when they first came into our care. Any children that have been 
enrolled prior to, we don't have access. The bottom line is 
that we don't have the information on the foster care family. 
What would be great is actually to have the list of all the 
foster care families, so that we could outreach to them and 
provide them with information and education about DC KIDS. For 
example, issues about Medicaid numbers and things like that, 
many of the families are not even aware that the program 
exists. So if we had access to them and were able to educate 
them, some of the things that were mentioned earlier probably 
could be minimized.
    Senator Landrieu. I may be misunderstanding, maybe I heard 
the testimony wrong, but I'm trying to determine when the car 
accident occurs, are the children in the car accident brought 
to you?
    Ms. Bowens. No.
    Senator Landrieu. That's what I'm trying to figure out. I 
thought you testified that was an early initial evaluation.
    Ms. Bowens. No. When children first go to CFSA, then CFSA 
will bring, the social worker will bring children to Children's 
Hospital for an initial assessment.
    Senator Landrieu. Right, an initial assessment sometime 
after that car accident.
    Ms. Bowens. Yes, exactly. I'm sorry. Very, very quickly, 
within 24 hours, those children will come in for an initial 
assessment. We don't have any idea of where they're going, it's 
just kind of the social worker is there with them, we'll do an 
initial assessment just to make sure that they are healthy 
enough to be placed. We then work diligently to work with CFSA 
to find out where those families are then located, so that we 
can provide their follow-up primary care visit and a mental 
health evaluation.
    Senator Landrieu. But in that stop, do you do a 
comprehensive evaluation of the child's general situation so 
that you could provide foster parents with some meaningful 
information about a general initial evaluation of their 
physical health, maybe some of their initial experiences, the 
reasons they were--you know, a packet that would be helpful to 
what Mrs. Egerton said about having some information as a child 
comes into a foster care home, do you provide this information?
    Ms. Bowens. We don't, we would love to. I mean, we have 
actually reached out to the agency, because many of our 
physicians get extremely frustrated because the children come 
in, we have no medical record information, no background 
information, so we are not poised right now to be able to do 
that, because like many of the other panelists have said, we're 
chasing after information to be able to make those appropriate 
assessments. But our initial assessments when they first come 
in, again under that label of assessment, are to just make sure 
that the child is healthy enough to be placed, and then we 
provide the follow-up comprehensive evaluation. But then the 
struggle there is, we don't have the requisite information.
    Senator Landrieu. It's a very limited evaluation of the 
child.
    Ms. Bowens. The initial, that's correct.
    Senator Landrieu. Ms. Sandalow, would you like to comment, 
or Miss Egerton, if we could help develop this system, would 
that be helpful? We want to create systems that are simple, 
streamlined and work, and not add any other bureaucratic 
layers. Can you comment on that system as it exists today and 
what you would like to see?
    Ms. Egerton. Well, that actually happens prior to the child 
being placed with me. It would be divine, and we have been 
fighting for a very long time to get adequate information on 
our children when they come to us. The realities though, in all 
fairness to CFSA, is that they're chasing down the information 
as well. When they go into a home to take a child out in the 
middle of the night and the parent is in opposition, the parent 
isn't standing there saying, well, wait a minute, let me get 
you the Social Security card and Medicaid card. That doesn't 
happen, and so CFSA is chasing the information down also.
    The evaluation happens before the child is placed with me, 
so I really can't speak to the evaluation itself, but we would 
like a situation where they go to that evaluation and from that 
evaluation come to us with a full medical screening, with a 
mental health evaluation, with all of the pertinent medical and 
mental health information available to us, absolutely. And if 
we can figure out a way to do that, that would be beautiful.
    Ms. Sandalow. But we need the combination of the medical/
mental health screening. We need adequate social worker 
resources at the very beginning to pull that together. The 
Foster and Adoptive Parents Advocacy Center, which I'm proud to 
be on the board of, has done an extraordinary job in their 
efforts to put together the concept of a placement passport, 
which would carry that information. If a child comes to your 
home who is HIV-positive, we want to know so we can give 
adequate medication. That has been a struggle.
    So there is a medical and mental health piece that comes, 
but there are also things as simple as has the child been in 
the system before. It is common for a child to be returned home 
and then he will come to you 2 years later and you are not told 
that. My own children have been in and out of care twice. It 
took 2 years for me to figure that out, until they were 
emotionally able to unlock that. I didn't learn it from CFSA. 
Those kinds of records could be pulled in.
    And I think most important is to focus CFSA on adequate 
social worker resources in the first few days, to pull together 
family. We had a case recently where we represented a child who 
had been living half-time with her father in a normal split 
custody situation and CFSA did not know that there was a father 
involved. And we figured it out and we had to tell them. So 
here's a child who could have moved straight to her father, and 
it took an outsider to tell. So that kind of intensive 
interview of the family members and the neighbors, and a family 
caucus, it is a model being used around the country.
    Senator Landrieu. I would like to follow that up for a 
minute. I know Senator DeWine has questions, but I think this 
is a very important component to obtain this initial placement 
assessment by getting the general information from family and 
neighbors, so an accurate assessment can be made. The hospitals 
need this, the foster care parents need this, and the judges 
need this information eventually so that they can make good 
determinations for the children.
    Could we comment about what exists now? Is there any model 
in the District of that group social worker intensive 
evaluation? If so, where is it working? If not, how could this 
committee help to get that initial assessment, which I think, 
that and the technology piece are the two things that we 
perhaps could be most helpful with.
    Ms. Sandalow. I think that the funding assets should go to 
CFSA as a targeted type of project. I shared my testimony with 
a few people who--yesterday, who said this emergency team, 
shouldn't that be true for every child? And you'd think that 
the goal would be for CFSA to be given some pilot money to 
develop it internally, because obviously our hope is, if it 
works, if they can make it work and they have the funds to do 
it, that they can expand that even more for all the kids.
    I don't think it's happening in any of the private agencies 
right now. Our structure is that when a child comes into the 
system, it is CFSA who touches them first. So I think that they 
need to be focused on that job.
    Senator Landrieu. Let's take one minute, if you would, to 
describe in 30 seconds what this team would look like. How many 
people would be on it, would there be a team leader? Does 
anybody have a comment?
    Ms. Sandalow. I'm a lawyer, so I don't think I'm the expert 
you want, but it is--I can tell you what we do. In essence, we 
step in and act like what we call the SWAT team that we're 
hoping to, and we do it ourselves. And we have one lawyer 
working tirelessly around the clock. I think two or three 
social workers. The important thing is passing the information 
on. That needs to happen. And you can go to hospitals after 
hours and get medical records, we can coordinate that. What 
we're talking about is a team of social workers who have the 
time as well as, and I think this is very important, flexible 
funding.
    I think you mentioned, Senator, we should try to place 
children with relatives. Most of the relatives are not well 
off, they can't absorb extra children in their home without 
some assistance. Grandmothers who may be on SSI are wonderful 
caregivers, but they need some flexible funds to ease the 
transition. So it needs to be social workers with access to 
some flexible funds, access to the resources of Children's 
Hospital.
    Senator Landrieu. Mr. Chairman, could I ask one more 
question, and I want each of you to comment for the record. Do 
you think it would be a wise policy for us to try to put these 
evaluation teams together for the first initial assessment with 
the medical evaluation coming as close to an assessment as 
possible, more comprehensive than just the physical well-being 
of the child to, if we could identify a relative or neighbor, 
to make an emergency 30-day placement based on the 
recommendation of at least two certified social workers, if 
that would be the best, for at least 30 days until we can find 
a more--not to say more appropriate, that may have been a very 
appropriate placement, but a certified foster home, assuming 
none of these relatives have been certified for foster care, 
most of the neighbors are not certified for foster care. But 
yet, they may be the best short-term placement for these 
children until a more--and I want an answer yes or no, a short 
comment, because this is a big issue in trying to loosen up, if 
you want to use the word loosen up, but make a greater pool of 
placement opportunities that would help to ease this traumatic 
time for a child. Or should we stick to the policy of you can't 
place a child unless they're a certified family? Sister.
    Sister Conrad. I would certainly support the idea of as 
much flexibility as possible. The one area that strikes me 
immediately in your question is the notion of neighbor, and in 
many cases this would seem to be appropriate. However, if the 
child is being removed from a dangerous situation, if we're 
talking about the neighbor next door or down the street, we may 
simply be endangering the neighbor as well as the child 
themselves. And so in a very broad sense, yes, but with that 
notion, that our concern is safety in care, that perhaps a 
neighbor would be much further away than down the street.
    Senator Landrieu. Miss Egerton?
    Ms. Egerton. I actually have to agree with that. I think 
that's a real concern for--that's a real concern for foster 
parents. Even trying to keep children in their same 
neighborhood, if the child or children have been pulled out of 
very dangerous situations, and those parents can see that child 
going back and forth to that particular home, it can be an 
issue.
    I think that there needs to be some room left for 
flexibility. It sounds wonderful, right off the top it sounds 
like a wonderful thing, but you would put the agency in a 
position of monitoring unlicensed homes if you do that, which 
brings in a whole other dynamic. And as a foster parent, I 
would say it isn't always a bad thing for that emergency 
placement to come to me. The reality is, I raised six kids to 
adulthood who came to me as emergency placements who were only 
supposed to stay with me 4 weeks, and they stayed with me from 
11 or 12 years old to adulthood. I have one who came in at 17 
and was only supposed to stay a month, who stayed until he aged 
out.
    So, they called me not specifically because I could, you 
know, everything matched up or this was the child I wanted, or 
I matched the needs of the child, or because I would be able to 
answer the phone in the middle of the night. So it's not always 
a horrible thing either. I just think there definitely needs to 
be some room for flexibility.
    Ms. Sandalow. Unequivocally yes, with the additional 
problem that the District of Columbia has, which is a lot of 
those people live in Maryland, so anything that we can do to 
address the problem, because many of our extended families are 
in Maryland.
    Ms. Bowens. Not to be redundant, but I agree. I think that 
that would be great, but I think we do have to retain the 
flexibility because emergencies will happen and we don't want 
to have a situation where we again have a backlog of children 
waiting while we search out neighborhoods and families, and so 
there will be that ongoing need for emergency placement. So I 
think what ultimately the other panelists have said as well, 
but again, we need flexibility.
    Dr. Wright. Just to echo the flexibility mantra, but I 
would also like to address your question about the composition. 
I think that you have alluded to the fact that any such team 
would need to be multidisciplinary, because these children and 
families present with a multitude of issues, and the model that 
I alluded to in regard to emergency or urgent mental health 
assessment is one that suggests the need for several 
disciplines to be involved and a point of contact.
    Mr. Miller. I do agree with the rest of the panelists. I 
feel that if you can place a child in an emergency placement 
with a relative, that would be great, but that relative should 
not be in that community, and they should be--like you talked 
to about the economic burden, maybe grandparents are not able 
to support an extra child and things of that nature. So I think 
that if it's possible and reasonable, I think we should work to 
do that, because that would ease the transition.
    Senator Landrieu. Was there a relative you could have been 
placed with?
    Mr. Miller. I think that with economic help, I think that 
that would have been definitely possible, and it would have 
eased my transition to be with relatives.
    Senator Landrieu. Would you have liked that?
    Mr. Miller. Yes, I would have, Senator. I very definitely 
would have.
    Senator Landrieu. Thank you, Mr. Chairman.
    Senator DeWine [presiding]. Let me apologize to all of you. 
I had to attend another hearing actually, we call it a Senate 
markup, we were moving a poison control bill that we passed out 
of committee just a few minutes ago. So that's where I was and 
now I'm back, so I may ask some of the same questions that 
Senator Landrieu asked, because I obviously did not hear some 
of your answers.
    I would like to get into an area that I know has been 
covered a little bit, and that is the question of Children's 
Hospital contract between, a medical contract between 
Children's Hospital and CFSA, and make sure I understand the 
nature of that contract.
    How do you deal with a child that has a chronic medical 
problem such as, let's say asthma, and how do you know that kid 
has asthma, for example? How does that child get in to you? In 
other words, you know, we know that asthma is a preventable 
problem, and unless that child ends up in your emergency room, 
asthma is something that you try to keep he or she out of your 
emergency room, and if it's something that's severe enough, 
you're dealing with every day, that child is taking medication 
every day. How do you know that child who maybe has been in the 
system for a long time, how do you reach out and get that kid 
in so that kid is being seen by your specialists or whoever he 
needs to be seen by?
    Dr. Wright. Well again, I will reiterate that the point of 
entry into our system only occurs with initial placement or 
change of placement. So provided that that has occurred, we as 
part of our screening do inquire about the presentation of 
chronic illness. And actually as we speak, we are developing a 
pilot program for the DC KIDS program within which we have 
identified a physician who would specifically work with those 
children who have complex medical conditions. In other words, 
this individual would be the primary physician for that cohort 
of children who have asthma as an example, or who might have 
any host of medical conditions that are actually more 
predominant in this population than in the population at large. 
This individual, as I said, we are piloting this right now, and 
this individual would be identified as the follow-up physician 
from the point of assessment, and then be involved in the care 
of--the ongoing care of that child through specialty care or 
whatever care the child needs. But we are sensitive and 
recognize that that is an issue and a problem that we want to 
identify as early on as possible, and that's the reason why we 
are instituting this pilot program right now.
    Senator DeWine. But the big picture is that you have--how 
many children do you currently have, what I would call open 
case files?
    Dr. Wright. Four thousand, five hundred that are enrolled 
in the DC KIDS program.
    Senator DeWine. Those are foster children.
    Dr. Wright. That's right.
    Senator DeWine. And that's out of a total of how many kids 
that are in the foster care program?
    Dr. Wright. I believe we heard this morning that the 
universe is somewhere between 8,000 and 9,000.
    Senator DeWine. Okay. So instantly we know that we have a 
problem, right? I know I'm repeating what has been said, but to 
me this is a real problem.
    Ms. Goode. No.
    Senator DeWine. Okay. We do have a problem or we don't have 
a problem. Who's saying we don't have a problem?
    Senator Landrieu. They're saying they don't have that 
number.
    Senator DeWine. Okay, step up to the microphone and 
identify yourself for the record please.
    Ms. Goode. Good morning, Senator.
    Senator DeWine. Good morning.
    Ms. Goode. I am Brenda Goode, Public Information Officer 
for Child and Family Services. Let's help get these numbers 
straight. There are 3,200 paid placements in foster care.
    Ms. Sandalow. But many more children under the supervision 
of the Court.
    Ms. Goode. That's correct, but 3,200 paid foster care 
placements and about 8,000 children in the system total. So, a 
number of those children are being monitored in their homes 
with their parents.
    Senator DeWine. Well now, what does all that mean?
    Ms. Goode. Eight thousand children in the system, of which 
3,200 are paid foster care placements. And then we have the 
remainder of the kids who are being monitored at home with 
their parents.
    Ms. Sandalow. But other kids are placed with kinship 
caregivers.
    Senator Landrieu. It would be very helpful if you all could 
give us for the record today, I would appreciate this, 
literally just a record of the universe, okay? Because we need 
to have those numbers.
    Senator DeWine. Well, I'm getting apples and oranges now. 
The point is, the public policy issue is how many, as a matter 
of public policy, should we be providing medical care for. 
Isn't that the public policy issue?
    Ms. Bowens. All of them.
    Senator DeWine. All of what universe? I'm getting an 8,000 
number or a 3,200 number?
    Ms. Goode. Right, the 8,000 is the entire universe of 
children that we have cases open on at the current time, but 
3,200 is the number who are placed in foster care. So right 
now, DC KIDS only serves our children who are in foster care.
    Ms. Bowens. But we also serve the children who are under 
the jurisdiction of child protection as well, so we serve both.
    Ms. Goode. All right. So you serve all the court-involved 
kids.
    Ms. Bowens. Correct.
    Ms. Goode. We have a number of kids in the system for other 
cases in court.
    Ms. Sandalow. I understand from the Family Court that it's 
slightly over 5,000 children who are court involved.
    Senator DeWine. That includes the foster kids?
    Ms. Sandalow. That includes children in foster care and it 
includes children who are still, there's an open court case but 
they may have returned home to their parents or whatever but 
they didn't close the Court's involvement, and the children who 
are with relative caregivers who are not licensed paid 
providers.
    Senator DeWine. So, are we all agreeing that that's the 
universe, that as a matter of public policy, the District of 
Columbia has agreed that we want to take care of their health 
needs?
    Ms. Sandalow. Most of the children----
    Senator DeWine. Hold on. I want to get her. Since you 
represent the CFSA, would you like to answer that?
    Ms. Goode. What was the question?
    Senator DeWine. My question is, do we agree as a matter of 
public policy, CFSA had said that that is the number that you 
want to provide medical care for, and that is 5,000, whatever 
the figure was.
    Ms. Goode. Yes. But we also provide Medicaid services for 
other kids, so that if you're not part of DC KIDS or not court-
involved, we still provide medical services for the families 
who are involved with us.
    Senator DeWine. But if I have a 5,000 figure, and what's 
the figure, 5,000 what?
    Ms. Goode. Five thousand court-involved kids.
    Senator DeWine. Five thousand court-involved kids, and 
you've got, the hospital has open files for how many?
    Ms. Bowens. About 4,000 children year to date, we have been 
tracking and following.
    Senator DeWine. All right. So we are missing a thousand. Do 
you agree with that?
    Senator Landrieu. One of the issues, Mr. Chairman, is that 
they only have files for kids that have had a change in their 
placement.
    Ms. Bowens. And since we took over the program, there are 
many more children----
    Senator Landrieu. They're not really lost, it's just that 
they didn't come into the system because they are in a stable 
place now, but I understand that your enrollment in DC KIDS is 
about 4,000; is that correct?
    Ms. Bowens. That is correct. We only track those children 
who have had an initial placement or a change since 2001 
basically, so any children who may have been in a home for 
many, many years and did not have to come for an initial 
assessment through us would not necessarily be in the program. 
Now we've done some significant outreach working with the 
agency to bring more in, but there is obviously a large group 
of folks we do not have access to.
    Senator DeWine. And I'm not finding fault with Children's.
    Ms. Bowens. I understand that.
    Senator DeWine. All I'm simply saying is, does that mean 
that those children are not getting medical care?
    Ms. Bowens. No, it does not mean that.
    Senator DeWine. What does it mean?
    Ms. Bowens. It means that we are not coordinating all of 
their health care services and they then are left to kind of 
navigate on their own. So the foster family may have to work to 
get the Medicaid card, to schedule appointments. We are able to 
kind of fully manage the care for these children.
    Senator DeWine. Let me ask it this way then.
    Ms. Bowens. Okay.
    Senator DeWine. Would we all agree as a matter of public 
policy that it would be better if those thousand were picked 
up?
    Ms. Bowens. Yes, and I think the agency would agree with 
that as well.
    Senator DeWine. Well, let me ask the agency. Does the 
agency agree with that?
    Ms. Goode. Yes.
    Senator DeWine. Okay. Then why can't we get it done?
    Ms. Goode. You're asking me--you started out by saying that 
you didn't understand the contract between CFSA----
    Senator DeWine. Yeah, and now I'm asking a different 
question. Can you answer that question?
    Ms. Goode. I know that's a contracting issue, and I don't 
know the answer off the top of my head.
    Senator DeWine. I'm not sure it is a contracting issue.
    Ms. Bowens. No, it's not a contracting issue. Part of the 
issue is that we need to do a better job of outreaching and 
accessing the families, and being able to educate them that the 
service is available to them. I mean, that is the largest 
obstacle.
    Senator DeWine. Well, my only point is, if we have decided, 
you have decided that this is a good way to provide medical 
care and you're doing it for four-fifths of these kids, why 
don't you figure out a way to do it for the other fifth of 
these kids? That's all I'm saying. I didn't devise the system, 
I didn't say it was the best system, but it seems to me as an 
outside lay person, you as the experts decide it is the best 
system, and it seems to me it is the best system, it looks like 
we have the experts here who are doing it, and why do you just 
say we've got a fifth of these kids and we're just not going to 
worry about them? And it seems to me, I worry about them. I 
don't get it, why don't you worry about them?
    Ms. Goode. And I simply don't know the answer off the top 
of my head.
    Senator DeWine. My only point is why?
    Ms. Goode. I will be happy to take that message back.
    Senator DeWine. Thank you. If these are the best folks that 
we've got, and I think it's good you have a contract with them, 
and I just think if we get the rest of these kids in the system 
so they can get kind of the holistic approach to health care, 
and we know it's good and it's particularly good with kids, and 
we can get prevention in there and get somebody paying 
attention to them, that's the way we want to treat these kids, 
and if we're missing some of them, we want to get them into the 
system. That's all.
    Let me turn to Miss Egerton, if I could, and you made some 
interesting comments, and I appreciate the fact that you said 
that things are getting better. And I think that was, you put 
it in perspective and I think those of us who can be critical 
up here need to understand that, so I appreciate you saying 
that.
    But I am intrigued by some of the things you said, and I 
want to read from your written testimony. You say, social 
workers often invalidate our experience, and when it comes to 
the right to make decisions, exclude, ignore and/or rebuff the 
foster parent's input. I wonder given your vast experience, if 
you can give me an example. And obviously, don't use names, and 
obviously don't use anything that we could tie them to any one 
person, but could you give me an example?
    Ms. Egerton. I could give you some examples. One major 
example is the fact that there is supposed to be these 
administrative reviews that happen every 6 months, and in my 
history of fostering, I think I have been to 2 or 3, in 12 
years. And even, you know, as much as things have gotten better 
over time, even recently, I have not been invited to an 
administrative review.
    Senator DeWine. Why is that, do you think? You know the 
system as well as anybody.
    Ms. Egerton. I know the system pretty well and I am not 
sure if that is because they are not happening or if that is 
because they are happening without me; either way it's a 
travesty.
    Another example, a very personal example would be, I have a 
son who at 17 was having some very serious behavioral issues in 
school, and we were putting him on restriction. And so his 
social worker came in, and this is a child who I have been 
parenting since he was 11 years old, who had been in 8 homes in 
the 18 months prior to coming to me and was only supposed to be 
there for a couple of days while they got a residential 
placement for him, and he ended up there. And he's my baby 
today, and he's aged out.
    But he at 17 years old went through some serious stuff, and 
his social worker just came in and said we were too strict, and 
that he should be in an independent living program, he didn't 
need the kind of restrictions we were putting on him. And I 
said you cannot do that, he is not mature enough to cope with 
the independent living programs that we have out there. And she 
fought me, she won, she got him into the independent living 
program. The moment he went in there, he went on a downward 
spiral, he ended up in a psychiatric facility for an extended 
amount of time. And when they did release him from that 
facility, they would not release him back into an independent 
living program. They called us and asked us if he could be 
released back to us, and we would not take him back because of 
the structure--or if we would not take him back, then they 
weren't going to release him until they found a setting with 
the kind of structure that he needed.
    Senator DeWine. Well, at least they learned.
    Ms. Egerton. But the fight was put up by the social worker 
who did not see my son even once a month, okay? And I was 
parenting him every single day.
    Senator DeWine. So you had all your years of experience.
    Ms. Egerton. And my husband and I were saying you cannot do 
this, you cannot do this. We asked them for certain supports 
for him. My son went down to his social worker, sat at her desk 
and asked for certain support and said okay, I have some real 
problems and I know it, and I have to get it together, and the 
solution that they came up with was to put him in independent 
living in spite of our protests.
    And I think that that example, though I will point out that 
that particular example did not happen under this 
administration, it is a classic example of how absolutely 
dangerous it can be to ignore the input of the person who is 
parenting these children every day all day.
    Senator DeWine. I think that's a great summary. I mean, 
it's a scary thing. You also tell us that although this 
incident occurred under a previous administration, the lack of 
input in decisions about our children still continues.
    Ms. Egerton. Absolutely.
    Senator DeWine. And that's even more frightening. Why do 
you think that is?
    Ms. Egerton. In my position as an employee of FAPAC, and 
also as an active member of a local foster parent support 
group, I interact with a lot of foster parents going through a 
lot of issues and they are brought to me constantly. Foster 
parents will tell me that a particular child is therapeutic and 
they need more services for this child, and they have a social 
worker telling them that child is not therapeutic, you don't 
know what you're talking about, we're just going to take the 
child away from you. I can't tell you how many foster parents I 
have had call me with that issue where the social worker just 
absolutely rebuffs what they say their child needs, and they 
feel that very often the social worker's personal feelings are 
involved and that the social workers sometimes make judgments 
about the underlying motivation for a foster parent requesting 
more services for their child, yet you know, ultimately that 
foster parent is just working toward a larger check.
    And let me say that I have worked with some fabulous social 
workers, so this is not a blanket statement to say that all 
CFSA social workers are lousy, it's not that at all. I have had 
some social workers use some of their skills to get me calmed 
down in some situations, so my hat's off to them, there are 
some wonderful ones. But there are still some social workers 
out there who are not accepting the fact that we do know what 
we're talking about and that when we say our children need 
certain services, the answer is not to decide that you just 
want to put yourself in a position to get more money for that 
child. The answer is to hear what I have to say and to act on 
getting those services for those children.
    Senator DeWine. Do you think that sometimes the problem is 
that they don't have those services?
    Ms. Egerton. I think absolutely, I think sometimes the 
problem is the services are not available, but I also think 
that sometimes the problem is that the social worker doesn't 
know that the services are available or have access to those 
services for my child. I have been in situations where I have 
known about services that would help my child and the social 
worker did not, and I had to school that social worker. And I 
know lots of foster parents, particularly those who have been 
it a long time, who have been in that situation.
    Senator DeWine. Mary?
    Senator Landrieu. Is there an annual evaluation of foster 
parents that is conducted by CFSA?
    Ms. Egerton. We have to get recertified every year and we 
have a support group that used to be called monitors, the 
terminology for a support worker assigned to us who visits us 
periodically throughout the year and regularly at yearly 
intervals takes us through the motions of getting recertified, 
so we go through all the clearances again and the medical 
evaluations, we go through a stack of paper work discussing 
what we can and cannot do.
    Senator Landrieu. You have been through this evaluation 
now, and as one of our outstanding foster parents, what would 
you recommend to either streamline that process and make 
everybody, save everybody a lot of time, but also get the job 
accomplished? Because what we want, I think, the purpose is to 
identify the foster parents who are doing a very good job and 
recommend that they be continued, and then to eliminate those 
that are not doing a good job. So, I don't know if you would 
know how many foster parents are eliminated each year.
    Ms. Egerton. I don't know.
    Senator Landrieu. If anybody in the audience knows, I would 
like to know, if possible, how many foster families are 
eliminated every year through that evaluation process. And Ms. 
Egerton, what would you recommend, one or two or three things 
that could be done differently that would make that process 
work better for you, better for the system, that you would like 
to share with us?
    Ms. Egerton. Wow, that's a good question. I think that for 
one, if there were more consistent and regular interaction 
between the social workers or the support workers and the 
foster parents, it may be a lot easier for the workers to know 
what kind of job we're doing. I think that maybe, you know--I'm 
not really sure, honestly I'm not sure. I think that it would 
probably be a good thing if we had some kind of evaluation 
where they talk to us about our strengths and weaknesses, and 
we talk to them about our strengths and weaknesses.
    As it stands, we do, we are required to do a certain amount 
of training all year, 15 hours of training throughout the year, 
but what does not happen is nobody sits down with me and says 
okay, here is what we see as your strengths, here are what we 
see as your weaknesses, what do you think about that, what 
training can we get.
    Senator Landrieu. In all of your years of foster care, no 
one has sat down and done that?
    Ms. Egerton. No.
    Senator Landrieu. And when they evaluate you as a foster 
parent, do they focus on your parenting skills, your 
relationship with the children, or do you find that their 
evaluation is concerned more about, you know, the home, the 
physical environment, or your recordkeeping capabilities, and 
what kind of records you are required to show them year after 
year after year?
    Ms. Egerton. They very seldom come to my house, truthfully. 
When I was trained I was told that I was required to keep a 
list of the children who come into my home who are placed with 
me, when they are placed, and their social worker. We are 
encouraged to give social workers copies of children's report 
cards, copies of health evaluations, although we don't get 
written copies of health evaluations, just so you all know. And 
any, you know, any other printed information we get, we are 
encouraged to give our children's social workers copies of 
that. I keep copies of it all. I keep a file on my children. I 
don't know that I have ever been told beyond that list that I'm 
supposed to.
    Senator Landrieu. Have you had the same monitor every year?
    Ms. Egerton. I had the same monitor for a very long time 
and I recently, I think the last 2 years, I got a different 
one.
    Senator Landrieu. Can somebody in the audience tell me how 
many monitors we have? We have 3,000 foster homes; how many 
monitors do we have?
    Ms. Sandalow. But I think it's important, Senator, that 
CFSA does not monitor Maryland homes, that Maryland monitors 
Maryland homes, and I think 60 percent of our children are in 
Maryland homes.
    Senator Landrieu. Of these 3,000 homes, for just homes 
where D.C. children reside, how many of them are in the 
District?
    A Voice From Audience. About 250 homes.
    Senator Landrieu. Only 250 homes are in the District of 
Columbia, and the rest of the homes of those 3,000 are either 
in Maryland or Virginia?
    A Voice From Audience. No, we don't have 3,000 homes. I 
will have to get back to you with accurate numbers.
    Senator Landrieu. Mr. Chairman, I'm going to have to have 
these numbers to do any of this work.
    Senator DeWine. You will.
    Senator Landrieu. Mr. Chairman, before this meeting is 
over, someone has to take responsibility to provide at least to 
me and to my staff an accurate accounting of the universe of 
what children we're talking about. We would really like to 
help, but we're having a very difficult time, and I don't want 
to take the time in a public meeting, but in 24 hours I have to 
have on my desk what the universe of the 8,000 children under 
the jurisdiction of CFSA is, and I'm going to ask them to give 
me this universe. How many children are under the jurisdiction 
of the courts, how many do you have that aren't under the 
jurisdiction of the courts? How many that are under the 
jurisdiction of the courts are living in traditional homes, how 
many are living in group homes, how many are living in 
therapeutic homes, I think those are the three categories, and 
if there's a fourth one, please add that. And of those homes, 
where are the homes? Are they in the District of Columbia, are 
they in Maryland, are they in Virginia?
    And we need these numbers before we can sign off on--the 
chairman and I agree that we spend--at least I spend half of my 
time trying to figure out that's not the number, that's not the 
number, and I'm tired of doing that. I want to focus on the 
solutions to the problems. So being able to provide an accurate 
list of that would be very illuminating to me, to begin with, 
and I'm getting very different information. So with that said, 
I have to have that in 24 hours, but this has been very 
helpful.
    One of the things we want to do is recruit more foster 
parents in the District of Columbia. This is a major problem 
that has been identified, and while I, and I think the chairman 
believes that we have want to have regional cooperation, if 
there are children who can be well placed in Maryland, we don't 
want to deprive them of the opportunities to have placements 
with relatives or good parenting homes just because they happen 
to live outside the concentrated and very artificial district 
that was created for totally other purposes, for the benefit of 
the Nation, so we should not hold children responsible for 
that, but to improve foster care to what some experienced 
foster care parents do, and we could recruit more, do better 
evaluations, et cetera, et cetera.
    Ms. Egerton. I think that, if I can just say this, that if 
we could retain more of our foster parents, your recruitment 
efforts would be----
    Senator Landrieu. Less than a third.
    Ms. Egerton. Absolutely, because we would actively recruit. 
Right now today, I have to say, I'm a little more willing to 
recruit today than I have been in years. And I for a long time 
absolutely refused to, and not only absolutely refused to 
recruit, but had made up in my mind, when the children I was 
fostering aged out, I was quitting, because the system was so 
horrible and because I felt so unsupported and unappreciated. 
As we see CFSA begin to give us the tools to do the things that 
we need to quality parent our children, we will recruit for 
you. I am a District of Columbia resident, have been my entire 
life, I'm one of those few native Washingtonians, and I would 
recruit. And I would guarantee that the people I bring in would 
be just like me and would be great foster parents.
    Senator Landrieu. That's what we want to hear.
    Ms. Egerton. But you have to take care of some of the 
issues that we are fighting. We must have care for our kids, we 
must have adequate healthcare for our children, we must be at 
the decisionmaking table for our children, and when those 
things happen, we will go out and recruit.

                    ADDITIONAL SUBMITTED STATEMENTS

    [Clerk's Note.--Additional submitted statements were 
received by the subcommittee and are included here as part of 
the formal hearing record. The statements follow:]
               Prepared Statement of Senator Paul Strauss
    Chairman DeWine, Senator Landrieu, and others on this subcommittee, 
as the United States Senator for the District of Columbia I wish to 
express my support for this Committee's examination of the D.C. Foster 
Care System. The foster children of the District of Columbia deserve 
quality care and service, services that can only be provided with your 
support.
    I respect the positions of all of the witnesses that are here today 
and acknowledge the testimony they have given. When faced with the 
challenge of reforming the Child and Family Services Agency not only 
did they step up to make the changes necessary, they did so to the best 
of their ability. However, it is the continuing need for change that 
brings us here today.
    Though we are all United States citizens, the residents of the 
District of Columbia are not afforded the same rights as their 
neighboring States. Therefore, we must rely on Congress to provide 
needed support to the D.C. Foster Care System. Ideally, the District of 
Columbia should not have to look to Congress for supervision. This is 
just another example of the injustice the American citizens residing in 
the District must suffer. While we will continue to fight to achieve 
full rights as celebrated by those in surrounding areas, I urge you to 
consider the needs of our D.C. Foster Care System as you would any 
issue that affects your own constituents, including respect for local 
sovereignty.
    All Americans must care about all American children. However, we 
must acknowledge the fact that to Ohio and Louisiana constituents the 
D.C. Foster Care system is not a high priority. For that reason I 
appreciate this committee taking the time to hear the needs of the 
District of Columbia's Child and Family Services Agency. We must come 
together and make effective judgments based on the needs of this 
community, and despite the inconvenience of having to go through 
Congress to make decisions about District spending, we welcome your 
input on matters that affect the interests of our children.
    Over the months since the end of Federal Court Receivership, the 
District has made substantial progress in reforming Child welfare and 
meeting the Federal Courts expectations. The witnesses who testified 
here today, not only provided suggestions for improvement but also 
justification to those suggestions. Several key issues must be taken 
into consideration. The development of a team of social workers whose 
primary goal is assessment and placement and an in-depth focus on 
permanent one-time placements are essential. Additionally an extension 
of the DC KIDS program as well as increased communication between 
foster parents and social workers are resources that should not be 
denied to the children of the foster care system.
    In many foster care cases, the Child and Family Services Agency has 
to make quick emergency placements. Often these placements are 
disruptive to the child and the foster family. At times placements are 
not available which can result in the child staying in group or intake 
homes. Ideally, the Child and Family Services Agency would have the 
funding available to create a team of social workers whose primary goal 
is assessment and placement. This team of social workers would be able 
to investigate different placements quickly in order to find the one 
most suited to the child's needs. Kinship or extended family placements 
can be more readily taken advantage of. In order to ease the transition 
into a new home flexible funding would also be available for emergency 
supplies such as beds, food, and clothes. These resources are 
fundamental in ensuring that the foster child receives the best care 
within the first few days of transitioning from the biological home to 
the foster home.
    Furthermore, the Child and Family Services Agency has a commitment 
to ensuring that children grow up in permanent homes. These homes are a 
necessary step in encouraging a healthy and normal lifestyle. They 
should have the means to devote more time in keeping siblings together 
and placing foster children with family members. Attention should be 
focused on one permanent placement rather than moving children from 
home to home. Foster children are taken from a traumatic home-life and 
have to work to build trusting relationships with a new family only to 
have to start all over again. The focus should be on finding the best 
placement, not just on placement as quickly as possible.
    The Children's National Medical Center already has a strong 
foundation for quality health care being providing to the District's 
foster children. With its DC KIDS program, foster children who have 
recently been placed in foster homes are given premium health care. 
However, the DC KIDS program does not help those kids who were placed 
in foster care prior to 2001. The need to be able to reach those 
children is great. With the development of the FACES program, a 
computerized database of all foster children, medical records and 
medical histories can be easily accessible to health professionals and 
social workers. Often foster parents, social workers and medical staff 
do not have adequate records that are needed for the care of the child. 
The DC KIDS program should be more integrated with the FACES database. 
This would not only enhance the DC KIDS program but would increase the 
reliability of the Child and Family Services Agency. The foster 
children of the District would receive quality care and there would be 
accurate medical histories and data on record for the children in the 
system.
    The Child and Family Services Agency's commitment to bringing up 
the services standard for all children can be met if the communication 
between its social workers and foster parents was at a more productive 
level. Currently social workers are overloaded with cases and are not 
able to visit the children on a regular basis. They can not provide 
important information, such as programs and opportunities, that the 
foster parent and child can take advantage of because there is no time. 
An increase in staff would not only solve administrative headaches but 
could also lessen the workload on current social workers. Face-to-face 
meetings should be arranged between social workers and foster parents 
so that some sort of feedback session can be accomplished. Policy 
changes frequently are not told to foster parents or even social 
workers. These administrative hiccups need to end. Only with the 
available resources can the Child and Family Services Agency become a 
valuable asset to our community.
    Senator Landrieu as you stated we would not leave a child involved 
in a car wreck stranded without emergency care. So why do we continue 
to leave the District's foster children stranded in this equally 
critical time? The answer is a lack of resources. The District Foster 
Care Services Agency must be given the resources it needs to take care 
of foster children. Most children are taken from a hostile environment, 
homes that can be both physically and mentally abusive. We need to do 
all we can to ensure the next home is one that will promote a healthy 
lifestyle so children of the next generation will not go through the 
same vicious cycle. The Child and Family Services Agency has a deep 
commitment to strong management and maximization of the quality of 
care. They have dealt with strained relations among agencies, 
increasing permanency placements, and have built a foundation of an 
improving organization. Adequate resources are a critical part of 
maintaining this momentum. The Child and Family Services Agency is on 
the right path and as long as we continue to improve, the organization 
will become a better place. Again I would like to thank Chairman 
DeWine, Senator Landrieu, members of the subcommittee for listening to 
the needs of the Child and Family Services Agency. I would also like to 
thank the witnesses who gave testimony effectively expressing the 
requirements necessary to care for the District's foster children. I 
trust the members of this subcommittee will go out of their way to 
ensure they have all the information that is required for this tough 
decision. I look forward to further hearings on this topic and am happy 
answer any questions. In closing, let me thank Ms. Adrianne Goffigan of 
my staff, for her valuable assistance in preparing this testimony.
                                 ______
                                 
         Prepared Statement of CASA of the District of Columbia
    Children being abused, neglected or not receiving mandated services 
while under court ordered supervision is an unacceptable crisis. When 
children become lost in the system that was put in place to protect 
them, the abuse of these children becomes an overwhelming tragedy. CASA 
of DC, Court Appointed Special Advocates of the District of Columbia is 
a nationally accredited program to ensure that no child gets lost in 
the system. CASA of DC's mission is to recruit, train and supervise 
volunteers from diverse cultural and ethnic backgrounds to assist the 
court in protecting the best interests of abused and neglected children 
by advocating for a safe and permanent home for every child. Our 
mission is to provide stability and hope to abused and neglected 
children by being a powerful voice in their lives. By matching trained 
community volunteers with children under court supervision, we can 
ensure that the needs and best interests of the foster children in the 
District of Columbia are met and can improve the decision-making 
ability of judges in the Family Court system by providing an 
independent evaluation that is geared to the best interest of the 
child.
    CASA of DC, Court Appointed Special Advocates for children of the 
District of Columbia is the ONLY accredited CASA program operating in 
the District of Columbia. Not only is the program the only program 
recognized and supported by the National CASA Association, the program 
receives technical and financial support from National CASA. In order 
to make CASA of DC the showcase program for the Nation, the program was 
designed from the bottom-up to ensure strict compliance with the 
National Standards established by Judge David Soukup in 1977. In 1990 
with the inclusion of the CASA Program in the Victims of Child Abuse 
Act, Congress affirmed the use of volunteers in the otherwise closed 
juvenile court systems and made provisions for the growth of the CASA 
volunteer movement nationwide. CASA of DC is also recognized and 
supported by foundations such as the Freddie Mac Foundation, the Gannet 
Foundation and Microsoft.
    Because the Metro D.C. area is unique, CASA of DC is working in 
collaboration with CASA programs both in Maryland and Virginia and have 
formed a working group entitled ``METRO DC CASA COLLABORATIVE''. The 
purpose of the group is to work together to address the problems of the 
Metropolitan area in the areas of abuse and neglect. In addressing the 
regional issues of child abuse and neglect, the Metro DC CASA 
Collaborative is working to ensure that no child falls between the 
cracks because of jurisdictional issues.
    In the District of Columbia, the Child and Family Services Agency, 
[CFSA] was removed from six years of Federal receivership established 
by the U.S. District Court in 1995 under the LaShawn A. v. Williams 
decree. However, social workers continue to carry large case loads and 
do not have time to provide the detailed, one-on-one attention that 
every child in the dependency system deserves. The office remains 
understaffed and children are not receiving the much needed services 
once they enter the system. Children continue to have multiple 
placements, few visits from the social worker and even fewer sibling 
visitations. Additionally, court orders are often times not 
implemented. Children in the system spend a median of 3\1/2\ years in 
foster care. Thirty-two percent of the children spend from 4-9 years in 
foster care.
    Under a court ordered plan by Federal Court under the LaShawn 
decree, CFSA must meet specific performance measures including:
  --Compliance with ASFA ( Adoption and Safe Families Act).
  --Increased visitation: Increase the number of visits children 
        receive from their social worker. (As of 2/2003, children in 
        foster care were only visited monthly by their social worker in 
        one-third of the cases).
  --Reduce the numbers of placements.
  --Children should be placed in the least restrictive environment.
    CASA programs fill the void left by an overburdened system. Social 
workers and attorneys carrying large caseloads. In this jurisdiction 
there remains a high staff turnover rate, so caseworker effectiveness 
remains low. Because of budget cuts and low salaries, many 
jurisdictions face serious difficulties in recruiting qualified 
motivated caseworkers. We continue to see child welfare workers who are 
overworked, have less time, and are doing a less effective job for 
children.
    A CASA advocate will only carry one case at a time and advocate for 
all children in that family.
    The CASA program, historically has proven to be able to:
  --Reduce the number of children in foster care.
  --Reduce the amount of time a children remain in foster care.
  --Ensures that court orders are implemented so that the child 
        receives medical, mental and educational services.
    In the District of Columbia, approximately 1,500 new abuse and 
neglect cases are brought before the Family Court each year. This 
compounds the number of children already in the system which is 
approximately 4,000. The goal of the CASA of DC program is to have a 
trained CASA advocate for every child in the system. Each volunteer 
advocate represents one family representing approximately 1-3 children 
per family ranging from birth to 18 years of age.
    Why volunteers? CASA of DC trained and certified volunteers act as 
a multiplier for professional program supervisors. Volunteers work on 
only one case at a time. This one on one ability provides closer 
monitoring than can be cost effectively provided directly by 
professional staff. CASA volunteers focus gives them the ability to see 
and do more on behalf of the children that they represent. CASA of DC 
volunteers receive extensive, ongoing training and close supervision 
from the professional program staff. By the very nature of their 
``volunteerism'' they empower themselves through their commitment of 
time and energy. They stay with the case from beginning to end and 
serve the program an average of 30 months.
    Volunteers are also independent of bureaucratic constraints that 
often keep those employed by our local institutions playing by rules 
that frequently are too rigid or outdated to serve the best interest of 
the children in foster care. Certainly CASA volunteers do not work in a 
vacuum. It takes the strong support and guidance of local program staff 
to facilitate their work. Careful screening, training, supervision, and 
retention are essential to assure high quality volunteer advocacy. 
Although paid staff play an integral role in the coordination and 
management of the program, the traditional role of staff does not 
include routinely working cases. The CASA Advocate will have closer and 
more consistent contact with the children than the social worker or the 
attorney. Another reason to have CASA advocates is its cost-
effectiveness. It is certainly more cost-effective to have one staff 
person coordinating 30 volunteers serving 75 children as opposed to one 
staff person carrying 25 cases with 60 children. Still, cost-
effectiveness is only a small component of our commitment to the use of 
volunteers.
    Volunteers bring a much needed outside perspective to our court and 
child welfare systems. Their lack of past experience in the system not 
only brings a fresh perspective to what we do, it opens our doors to 
the community and helps raise public awareness of the plight of our 
community's abused and neglected children.
    To a child, having a volunteer working for them can make all the 
difference. Hundreds of children across the country have been moved 
when understanding the notion, ``you don't get paid to do this?'' It 
shows to them the level of concern and commitment being made by the 
volunteer. No, it's not part of their ``job.'' Volunteers are ordinary 
citizens, doing extraordinary work for children, and along the way 
bringing such passion, dedication, and effort to their work. In the 
period from January, 2003-March, 2003, over 463 volunteer hours were 
given to the children of our community. The significant achievements by 
the advocates for the children represented includes but is not limited 
to:
  --Finding and retaining proper school assignment,
  --Obtaining clothing,
  --Obtaining school supplies,
  --Locating tutoring services,
  --Requesting child support and follow up with court and family,
  --Ensuring dental appointment completed,
  --Helping with housing,
  --Monitoring the appropriate placements,
  --Helping parents locate substance abuse program,
  --Requesting an IEP in compliance with court orders,
  --Assisting in locating summer camps,
  --Ensuring medical and dental appointments are kept,
  --Assisting in preventing the expulsion of a child,
  --Locating therapy for the children,
  --Informing the court regarding improper group home facility,
  --Locating Saturday classes,
  --Locating dance school,
  --Locating GED classes,
  --Locating independent living skills programs,
  --Locating vocational training programs,
  --Locating summer programs,
  --Locating mentoring programs,
  --Locating after school care, and
  --Locating a more compatible foster placement.
    In 1988, CSR, Inc., under contract with the U.S. Department of 
Health and Human Services, published the results of a study entitled, 
National Evaluation of Guardians Ad Litem [CASA] in Child Abuse or 
Neglect Judicial Proceedings. After analyzing five types of CASA models 
the study found that:

    ``CASA volunteers are excellent investigators and mediators, remain 
involved in the case and fight for what they think is right for the 
child.'' The study concluded, ``We give the CASA models our highest 
recommendation.''

    As advocates for children, there are no phrases such as ``it cannot 
be done'' because when it is in the best interest of that child, our 
volunteers will zealously advocate for those interests no matter what 
barriers come before them. There is a story about a man who was walking 
on the beach and saw hundreds of starfishes dying on the sand so he 
began to throw them into the sea one starfish at a time. Another man 
was walking and saw the man's futile attempts to save the starfish when 
he said to the man, ``You will never save them all.'' The man replied, 
``Oh, but it does matter even if I save one starfish.'' And so, the 
CASA program will continue to make a difference, one child at a time.
    We thank the committee for allowing us to submit this written 
testimony.
                                 ______
                                 
         Prepared Statement of the Council for Court Excellence
    The Council for Court Excellence (``CCE'') is an independent, 
nonprofit, nonpartisan organization dedicated to improving the 
administration of justice in the local and Federal courts and related 
agencies in the Washington metropolitan area. While the Council for 
Court Excellence is proud to have a number of judges among its active 
and dedicated board members, it is important to note that no judicial 
members of the Council participated in the preparation of this 
testimony.
    For more than 3 years, CCE has been privileged to work with the key 
public agencies in the D.C. child welfare system--the Family Court of 
the D.C. Superior Court, the Child and Family Services Agency 
(``CFSA''), the Office of Corporation Counsel (``OCC'')--and others, to 
reform the city's child welfare system so that every abused or 
neglected child in the District of Columbia has a safe and permanent 
home within the time frame established by the Federal and D.C. Adoption 
and Safe Families Acts (``ASFA''). To assist the agencies in meeting 
these goals, CCE has been tracking and measuring progress in child 
abuse and neglect cases filed since February 1, 2000, the date the city 
began implementing ASFA. In October 2002, we were pleased to issue a 
public report summarizing the many early successes of the D.C. child 
welfare system reform effort. This statement is intended to explain how 
far the system reform effort has come and how much further there is to 
go.
                             where we were
    When CCE began its work with the agency leaders in late 1999, CFSA 
was under Federal court receivership, relations among the agencies were 
strained, and there was little awareness of ASFA's permanency 
requirements. As reported on July 15, 1999, by the Federal court-
appointed Monitor of CFSA:

    ``Significant interagency issues remain unresolved . . . 
Relationships between CFSA, the Office of Corporation Counsel, and the 
Superior Court also remain problematic; each agency is highly critical 
of the other's failings. OCC currently is understaffed to meet the need 
for timely processing of abuse and neglect and termination of parental 
rights petitions and CFSA's staffing and practice problems contribute 
to friction between the agencies. The structure and resources available 
in the Family division of the Superior Court make it difficult for the 
court to provide timely legal action for children and families. (1998 
Assessment of the Process of the District of Columbia's Child and 
Family Services Agency in Meeting the Requirements of LaShawn A. v. 
Williams, Center for the Study of Social Policy, July 15, 1999).''

                              where we are
Structural Improvements
    There has been dramatic improvement since those early days. Perhaps 
the most dramatic of improvements is CFSA's emergence from receivership 
and establishment as a cabinet-level agency of the District of 
Columbia. Other important structural reforms are: 1) the selection of a 
new agency director, Dr. Olivia Golden, and a new management team; 2) 
the agency's assumption of responsibility for child abuse cases in 
addition to child neglect cases; 3) the publication of licensing 
regulations for foster and group homes; and 4) the increased used and 
usefulness of the agency's FACES data system.
Improvement in Agency Relations
    There also is a new spirit of collaboration and cooperation among 
agency leaders. CCE facilitates monthly ``Child Welfare Leadership Team 
Meetings'' among the agency leaders, i.e., Dr. Olivia Golden, CFSA 
director; Judge Lee Satterfield, Presiding Judge of the Family Court; 
and Arabella Teal, Interim Corporation Counsel; and many others 
including the leaders of the Department of Mental Health, the 
Department of Human Services, D.C. Public Schools, etc. As trust and 
communication among these leaders has grown, these meetings have become 
more and more productive with team members identifying multi-agency 
issues and setting-up work groups to address them.
    For example, the enormous task of transferring to the Family Court 
over 3,500 child abuse and neglect cases that were pending before 
judges assigned to divisions outside the Family Court was accomplished 
by a work group consisting of CFSA, the Family Court, the Department of 
Mental Health, and OCC. Together they identified cases appropriate for 
transfer and closure, and they prioritized the sequence for transfers. 
In addition, CFSA is a member of several of the Family Court's multi-
agency committees on Family Court Act implementation. CFSA also is a 
member of the Family Court's Training Committee which is organizing 
monthly and annual interdisciplinary training sessions for judges, 
social workers, and lawyers. It also is one of several agencies with an 
on-site service representative in the Family Court's Service Center.
    In addition to the monthly Child Welfare Leadership Team Meetings, 
Judge Satterfield and CFSA director Dr. Golden meet on a regular basis 
to discuss issues affecting both agencies. Together they worked out a 
schedule that would allow social workers to spend more time with their 
clients and less time in court. Relations between CFSA and the Family 
Court are perhaps the best they have ever been.
    Relations between CFSA and OCC have improved significantly. OCC 
attorneys and CFSA social workers are now co-located at the offices of 
the agency so that they may work more closely together in preparing 
child abuse and neglect cases for court. What is more, OCC attorneys 
are providing CFSA with legal representation in cases from filing of 
the abuse/neglect petition through the permanency hearing stage. Before 
the city made the commitment to increase OCC staffing, CFSA social 
workers were represented only through the trial and disposition stages 
of a child abuse and neglect case.
      improvement in asfa compliance and measuring asfa compliance
    The agency leaders have made steady measurable progress in 
complying with ASFA and they are keenly aware of the need to track case 
data to measure ASFA compliance. One of ASFA's most important 
requirements is that a permanency hearing be held within 14 months (425 
days) of a child's removal from home to decide the child's permanency 
goal, i.e., reunification with family, adoption, or guardianship, and 
set a timetable for achieving it. Data collected by CCE for cases filed 
since 2000, shows significant and growing improvement with ASFA's 
permanency hearing requirement:

         COMPLIANCE WITH 425-DAY PERMANENCY HEARING DEADLINE \1\
                [For Children Removed from the Home] \2\
------------------------------------------------------------------------
                                                     Compliance Rate
               Year Cases Filed                         (percent)
------------------------------------------------------------------------
2000..........................................                       32
2001..........................................                       43
2002..........................................                  \3\ [54]
------------------------------------------------------------------------
\1\ CCE's data is calculated through the third quarter of 2002 only. The
  Court took over the responsibility of data tracking from CCE in the
  fourth quarter of 2002.
\2\ 80 percent of children in abuse and neglect cases filed in the past
  three years were removed from their homes. Thus, this data reflects
  approximately 80 percent of child abuse and neglect cases filed in
  each of these years.
\3\ We obtained this 2002 figure from the Family Court's first annual
  report filed with Congress on March 31, 2003. The Court's permanency
  hearing compliance rates for 2000 and 2001 were significantly higher
  than CCE's. This 2002 compliance rate appears reasonable and more
  reliable.

    Data from the past three years also shows that the length of time 
from filing of the abuse/neglect petition to trial or a stipulation has 
decreased consistently. Indeed, data reported by the Court in its 
Annual Report shows that the city is now in compliance with the trial 
deadline established by D.C. ASFA, i.e., 105 days from filing of the 
petition. The city also has made consistent progress in reducing the 
amount of time from filing to disposition--the court proceeding focused 
on remedying the conditions of abuse or neglect determined by trial or 
stipulation to be true.
    Through its FACES automated data system, CFSA has been successful 
at compiling additional types of information that are relevant to 
permanency. It tracks the number of entries into and exits out of 
foster care, the reasons for exiting care, and the permanency goals of 
children in care. It also tracks information on legal action toward 
adoption and finalized adoptions. In an effort to improve communication 
with the Family Court, CFSA has developed a function within FACES to 
access information on the dates, times, and locations of court hearings 
on child abuse and neglect cases. CFSA also is able to scan abuse and 
neglect court orders into its FACES system. In addition, CFSA is one of 
the most frequent users of JUSTIS, the District of Columbia's criminal 
justice information system, which can be used, among other things, to 
locate missing parents.
                          where we are headed
    Much additional information is needed to properly monitor 
compliance with ASFA. Because cases filed prior to 2000 are a large 
part of the child abuse and neglect caseload, the city must obtain 
permanency hearing information for these cases as it has done for cases 
filed since 2000. Also, the city needs information on how many children 
actually achieve permanency each year and how long it takes them to 
achieve it. Indeed, the city should know how long it takes children to 
achieve permanency for each permanency goal, i.e., reunification with 
family, adoption, or guardianship. In addition, it will need 
information on the rate of children re-entering the child welfare 
system after the original petition is closed. This information is 
essential to understanding and resolving the problems that delay 
permanency.
    Both CFSA and the Family Court are working to improve their 
individual automated information systems so that they can access 
information that will enable them to implement as well as monitor 
compliance with ASFA. The Court's new automated system is expected to 
be in place by July 2003. CFSA is revising its monthly data monitoring 
as part of is plan to implement the final order in the LaShawn lawsuit. 
In addition, the D.C. Mayor is working to create an automated system 
that will integrate the individual systems of the Family Court, CFSA, 
and the other child welfare agencies.
                               conclusion
    While there is much more work to be done, the D.C. child welfare 
system is on the road to reform. It is headed in the right direction 
and is moving at a quick pace. We have witnessed extraordinary 
commitment of the city's child welfare system leaders, including Dr. 
Golden, over the more than three years we have been involved in their 
work. We can now document improving performance trends, which make us 
optimistic that in the future the city's abused and neglected children 
will be better protected, better served, and will spend less time in 
foster care.
    We have attached a copy of the Council for Court Excellence's 
District of Columbia Child Welfare System Reform Progress Report to 
this statement.
                                 ______
                                 
Prepared Statement of Kate Deshler Gould, Esq., National Association of 
              Counsel for Children, Washington, DC Chapter
    My name is Kate Gould. I am an attorney and a mediator. I am one of 
about 250 attorneys who are appointed by D.C. Superior Court to 
represent children, parents and caretakers in child welfare cases. I 
have been doing this work since 1994 and have represented many children 
in the foster care system over the years. In my work I interact daily 
with the Child and Family Services Agency and advocate regularly for 
children in the foster care system.
                       suggestion for improvement
    I would like to share my perspective and some ideas for a plan that 
could help to shorten the length of time children are in care and cut 
down on multiple placements and failed adoptive placements. My 
organization, the local chapter of the National Association of Counsel 
for Children, is proposing the formation of a new type of mental health 
clinic dedicated to the needs of foster children. It would serve the 
children from the point of the traumatic removal through the closure of 
the case, if necessary. It would be a resource for the child to work 
together therapeutically to support reunification with the biological 
family, as well as to promote stabilization of foster and adoptive 
placements. It would save money in the long run by helping to stabilize 
children and families sooner, enabling successful case closure at an 
earlier date. Such a program is needed to replace the existing 
patchwork system of delay, insufficient services and poor quality 
services.
                      problems with current system
    In order to present the proposed solutions, I first need to 
describe the problems with the current system. The Child and Family 
Services Agency uses a program called DC KIDS for all its medical 
referrals, including mental health referrals. I have heard few 
complaints about the medical functions of DC KIDS. The mental health 
services provided by DC KIDS are another story.
    Referrals for mental health services do not run smoothly. I have 
cases where there are very long delays before a therapist is 
identified. In one case, it took two months to identify a therapist. 
After another two months had passed, I learned that therapy had not 
begun because the therapist had met once with the children to do an 
assessment, had to write a report, which then had to be reviewed by DC 
KIDS in order for services to be set up. In this case, not only had 
therapy been court ordered months before, but had also been recommended 
in psychiatric and psychological assessment reports. I was calling and 
threatening court action. The requirement for the therapist to assess 
and report only served to delay the onset of badly needed services. I 
worry about what the time frame would have been like without my 
advocacy.
    In another recent instance, a child for whom I serve as Guardian ad 
Litem told me that in order to reschedule her therapy appointment, she 
would have to contact DC KIDS. I checked with the social worker and was 
informed that DC KIDS does indeed do the scheduling for psychotherapy. 
This is an unnecessary encumbrance.
        traumatized children benefit from mental health services
    Psychotherapeutic services are not routinely offered as part of the 
services to the children removed, and yet, are universally needed. As 
the Guardian ad Litem, I routinely ask for court orders to provide 
these services. I have even been in the position of having to file a 
motion in order for therapy to be provided to a very needy child. These 
are not services that should have to be court-ordered in order to 
occur.
    Children who are in foster care or placed with relatives frequently 
exhibit many signs of emotional disturbance. They may be aggressive, 
oppositional, anxious, very needy, and they frequently have low self-
esteem. The reasons are obvious. They have been removed from their 
parent and their home. They may have been traumatized by physical, 
sexual or mental abuse or neglect that has precipitated the removal. 
Next, they are nearly always traumatized by the removal itself. I have 
never had a child removed from his or her parent, no matter how 
deplorable the abuse or the conditions of the home, who did not 
desperately want to return to the parent. Further, because of their own 
behaviors as a result of all this trauma, these children can be hard to 
live with and frequently do things such as steal or damage property 
which make them unwelcome in the foster home. Consequently, we see the 
additional trauma of multiple placements. Sadly, some children never 
recover from this trauma and spiral down into a life of residential 
treatment or juvenile delinquency.
           mental health services reduce placement disruption
    If a child removed from his or her parent were guaranteed the 
services of a licensed psychotherapist as soon as the case comes in, we 
would have a better prognosis for adjustment to the foster home or 
relative's home, making placement disruption less likely.
    There are other critical points when availability of good mental 
health services is crucial. Many children come into the system with a 
background that suggests the possibility of developmental delays or 
educational problems. The patchwork of services that now exists 
provides uneven quality of psychiatric, psychological and psycho 
educational reports. These almost routinely have to be court ordered in 
order to occur, and very often there is delay in obtaining these 
services and the necessary reports. This information is essential to 
getting the help that these children need in order to address the 
problems that may be identified.
    Good mental health services are particularly needed upon removal 
from the home and for the adjustment period of about the first 90 days. 
In order to effectuate reunification of the child with the biological 
parent, family therapy may play an important role. If efforts toward 
reunification with the biological family are exhausted and the goal is 
made adoption, the child will need support and therapy to help to 
process feelings of grief and loss. Another critical point is when a 
pre-adoptive family is identified, and the child and family need help 
to establish trust, and to bond.
      mental health services ease adjustment in adoption placement
    I have had several cases where a pre-adoptive placement failed. It 
is very sad to see a child removed from the home that all had hoped 
would be that child's permanent family at last. In these cases, as 
Guardian ad Litem, I have advocated for family therapy and supportive 
services that simply did not exist. Child and Family Services certainly 
does not have a program that routinely provides the kind of support a 
family would truly need to adopt an emotionally fragile child from 
foster care. In these sad cases of mine, the families have told me they 
felt that they were left hanging with very little support to face this 
enormous adjustment.
   a clinic model would improve quality and availability of services
    Even if DC KIDS were to improve its service model, another problem 
exists. Well-qualified psychotherapists are not now widely available 
for foster children in the District of Columbia. There is frequent 
turnover among therapists, just as with social workers. I have had 
instances in my cases of therapists not showing up for scheduled 
appointments, dropping out of sight without a final session to give 
closure for the child, and failing to return telephone messages from 
the Guardian ad Litem or social worker. While in some of my cases, I 
have had excellent therapists who helped the child tremendously, in 
general the agencies which currently provide mental health services to 
foster children in the District of Columbia are doing an inadequate 
job.
    The Agency's position is that they are limited for the most part to 
providers who will accept what D.C. Medical Assistance pays. D.C. 
Medical Assistance pays a very low rate, and as a result, we find rapid 
turnover, and poorly qualified therapists. Licensed psychotherapists 
who will accept payment from D.C. Medicaid are very hard to find. 
Frequently after long waits for identification of a therapist, a child 
is assigned an intern. The problem with interns is that they are on the 
job for a short term, usually only a period of three or four months. 
Part of the therapeutic process involves trusting and building a 
relationship with the therapist. Children with behavioral difficulties 
resulting from neglect, removal and multiple placements frequently are 
diagnosed with attachment disorder, or at least have issues with 
attachment. This means that they reject others so they will not suffer 
rejection, which leads to huge behavioral problems in the foster home, 
at school, and with peers. The last thing most foster children need is 
a therapist who will leave after a short period of time.
         separate medical services from mental health services
    DC KIDS should separate out the mental health function from the 
provision of medical services to the foster children, and a new agency 
should be formed or contracted with to provide comprehensive mental 
health services to the foster children of the District of Columbia. It 
should have psychotherapists on staff who are licensed and well-trained 
to work with children and families. Funds should be allocated to cover 
salaries that are reasonable, which means significantly more than the 
amount paid by D.C. Medicaid.
       conclusion: a mental health clinic would be cost-effective
    If funds for this purpose were reallocated from another function, 
it would be cost-effective. A comprehensive mental health program for 
foster children would save money by reducing the length of time spent 
in foster care, and reducing the need for expensive services such as 
residential treatment.
    I appreciate your consideration of my suggestions.

                          SUBCOMMITTEE RECESS

    Senator DeWine. We'll end on that very positive note. Thank 
you very much for your commitment to the children, and we thank 
all of you for what you do for kids. We will continue to hold 
hearings on our foster care system, this was the second and we 
will have more in the future. Thank you.
    [Whereupon, at 11:27 a.m., Wednesday, May 14, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
